<html>
<title> - SEX CRIMES AND THE INTERNET</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      SEX CRIMES AND THE INTERNET

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2007

                               __________

                           Serial No. 110-87

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
38-335 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                            OCTOBER 17, 2007

                                                                   Page

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Member, Committee on the Judiciary..     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Member, Committee on 
  the Judiciary..................................................     2
The Honorable Ric Keller, a Representative in Congress from the 
  State of Florida, and Member, Committee on the Judiciary.......     8

                               WITNESSES

Ms. Alicia Kozakiewicz
  Oral Testimony.................................................     9
The Honorable Earl Pomeroy, a Representative in Congress from the 
  State of North Dakota
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
The Honorable Nick Lampson, a Representative in Congress from the 
  State of Texas
  Oral Testimony.................................................    17
  Prepared Statement.............................................    18
The Honorable Marilyn Musgrave, a Representative in Congress from 
  the State of Colorado
  Oral Testimony.................................................    19
  Prepared Statement.............................................    21
The Honorable Christopher P. Carney, a Representative in Congress 
  from the State of Pennsylvania
  Oral Testimony.................................................    22
  Prepared Statement.............................................    23
The Honorable Debbie Wasserman Schultz, a Representative in 
  Congress from the State of Florida
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25
The Honorable Cathy McMorris Rodgers, a Representative in 
  Congress from the State of Washington
  Oral Testimony.................................................    27
  Prepared Statement.............................................    28
Mr. Michael A. Mason, Executive Assistant Director, FBI, 
  Criminal, Cyber Response and Services Branch
  Oral Testimony.................................................    30
  Prepared Statement.............................................    32
Mr. Laurence E. Rothenberg, Deputy Assistant Attorney General, 
  Office of Legal Policy, Department of Justice
  Oral Testimony.................................................    35
  Prepared Statement.............................................    37
Mr. Flint Waters, Wyoming Internet Crimes Against Children Task 
  Force
  Oral Testimony.................................................    44
  Prepared Statement.............................................    46
Ms. Michelle Collins, Director, Exploited Child Division, 
  National Center for Missing and Exploited Children
  Oral Testimony.................................................    61
  Prepared Statement.............................................    62
Mr. Grier Weeks, Protect, Inc.
  Oral Testimony.................................................    64
  Prepared Statement.............................................    65
Mr. John Ryan, General Counsel, AOL
  Oral Testimony.................................................    69
  Prepared Statement.............................................    72
Ms. Elizabeth Banker, Assistant General Counsel, Yahoo
  Oral Testimony.................................................    79
  Prepared Statement.............................................    81

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Letter from Wayne Bowers, Board Member, Sex Abuse Treatment 
  Alliance (SATA), dated October 16, 2007, to Rep. John Conyers..     4
Article from The New Jersey Star-Ledger, dated August 14, 2005...   105
Letter from the Honorable Joseph R. Biden, Jr., a U.S. Senator 
  from the State of Delaware, to Robert F. Mueller, Federal 
  Bureau of Investigation........................................   118
Letter from James E. Finch, Assistant Director, Cyber Division, 
  Federal Bureau of Investigation, to the Honorable Joseph R. 
  Biden, Jr......................................................   121

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Lamar Smith, a Representative 
  in Congress from the State of Texas, and Ranking Member, 
  Committee on the Judiciary.....................................   135
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   136
Prepared Statement of the Honorable Steve Cohen, a Representative 
  in Congress from the State of Tennessee, and Member, Committee 
  on the Judiciary...............................................   137
Prepared Statement of Hemanshu Nigam, Chief Security Officer, Fox 
  Interactive Media and MySpace..................................   138


                      SEX CRIMES AND THE INTERNET

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2007

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:20 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Scott, Jackson Lee, 
Sanchez, Cohen, Johnson, Wasserman Schultz, Coble, Chabot, 
Lungren, Keller, and Forbes.
    Staff Present: Perry Apelbaum, Staff Director and Chief 
Counsel; Mark Dubester, Majority Counsel; Joseph Gibson, 
Minority Chief Counsel; Michael Volkov, Minority Counsel; and 
Brandon Johns, Staff Assistant.
    Mr. Conyers. Good afternoon. Sorry for the delay.
    The Committee will come to order.
    Welcome, everyone. Without objection, the Chair is 
authorized to declare a recess of the Committee.
    Today's hearing is on sex crimes and the Internet. The 
Internet has become a remarkable means of communication. It has 
also revolutionized commerce, the spread of information, but 
also unfortunately provides a venue for unscrupulous sexual 
predators to commit their crimes.
    These predators use the Internet to infiltrate social 
networking sites to arrange meetings with minors where they use 
brute force to commit sexual offenses or worse. They use the 
Internet to join chatrooms and arrange sexual encounters with 
minors. They use the Internet to distribute images of child 
sexual exploitation and other child pornography.
    So a goal of this hearing is to solicit input from all who 
are concerned about this issue, including my friends across the 
aisle, to make sure that any resulting legislation draws from 
all of the best ideas in strengthening the ability of the 
Federal and State law enforcement authorities to investigate 
and prosecute those who commit these kinds of crimes.
    I am now pleased to recognize the Ranking minority Member 
of the Crime Subcommittee, the distinguished gentleman from 
Virginia, Mr. Randy Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Chairman, first, I would like to request unanimous 
consent to allow the statement of the Ranking Member Smith to 
be submitted.
    Mr. Conyers. Without, objection, so ordered.
    Mr. Forbes. This is an important hearing.
    Finally. The Judiciary Committee is finally focusing on a 
criminal justice issue of significant concern to the American 
public. The sexual offense epidemic in our country is well-
documented. Each year an average of 366,000 individuals over 
the age of 12 are the victims of sexual offenses. It is 
estimated that nearly half of all of the sex offenders have 
attacked children under the age of 12. One in four women and 
one in seven men will be victims of sexual offenses in their 
lifetime.
    The National Institute of Justice reported that rape costs 
$127 billion in victimization costs every year. But no 
statistic can truly capture the pain and suffering of the 
victims and their families.
    The challenge is even greater when one considers the link 
between child pornography and sexual attacks on our children. 
We have seen an explosion of child pornography on the Internet. 
Offenders who possess or distribute child pornography are 
treated differently in our criminal justice system than those 
predators who prey on our children.
    A recent study, the first in-depth survey of online sexual 
behavior, found that 85 percent of offenders who downloaded 
child pornography also committed acts of sexual abuse of 
children. The policy implications of this study are significant 
because they firmly link child pornography and sexual 
predators.
    The challenge is for Federal, State and local law 
enforcement, legislators, and industry to work together even 
more than they have up to now to save children from these 
predators and to make the Internet safer.
    The solutions require a combination of approaches. The Adam 
Walsh Act that we passed last Congress was an important step in 
the right direction. We need to continue this effort by using 
our common sense to protect the vulnerable and innocent 
children of our country from sexual predators, to provide law 
enforcement with the tools they need to protect our children, 
require the business community to cooperate with law 
enforcement when necessary, and make sure that the laws we pass 
are being carried out by the Justice Department and that judges 
are appropriately sentencing sex offenders.
    I look forward to hearing from our witnesses, and I yield 
back the balance of my time.
    Mr. Conyers. I am now pleased to recognize the Chairman of 
the Crime Subcommittee, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I appreciate you holding this hearing on an important issue 
of sexual predators using the Internet for nefarious purposes. 
Protecting children from sexual predators is an important goal 
because the suffering caused by these crimes is a tragedy and 
we must do all we reasonably can to prevent such crimes.
    However, even though these cases pull at our heart strings, 
that does not relieve us from the responsibility to legislate 
on a sound and effective basis.
    There are many bills that have been introduced or will be 
introduced to require sex offenders to reregister their e-mail, 
instant message addresses, or types of Internet identifiers. 
The theory is with this information, law enforcement and others 
will be able to track these offenders' e-mail activity. 
However, because of the nature of the Internet and the ease 
with which a person can create an online identity, it may be 
difficult, if not impossible, to keep track of a sex offender's 
e-mail traffic through this approach, such that all we will be 
doing is adding another charge that could be brought after the 
fact.
    Furthermore, Mr. Chairman, the significant evidence is that 
of those who commit sex offenses using the Internet, only a 
negligible percentage are potentially subject to registration 
under any of the bills.
    I would prefer that our attention be focused on efforts 
that are likely to reduce such offenses based on credible 
evidence. The evidence is that sex offender treatment programs 
will significantly reduce sex offender recidivism. Department 
of Justice figures indicate that 5 percent of sex offenders 
commit other sex crimes and that the recidivism rate for child 
molesters is about 3 percent within 3 years of release. That is 
compared to about 65 percent or more for other crimes.
    Focusing resources on those who need treatment or other 
community assistance is far more likely to impact recidivism 
than relying on notions that we can track their Internet 
activity from a given e-mail address or other online 
identifier.
    Of course where there are instances of offenses that are 
not being prosecuted through lack of staffing or other 
resources, such as apparently is the situation in peer-to-peer 
sharing of child pornography over the Internet, we should 
provide additional resources to not only prosecute such crimes 
but to also thwart attempts to commit them, and that would have 
a deterrent effect because people will know they are getting 
caught, which is right now not the case.
    So, Mr. Chairman, I look forward to the testimony by 
witnesses on what we can do to actually address the problem of 
using the Internet to commit sex crimes against children and 
would ask unanimous consent, Mr. Chairman, that a letter to you 
from the Sex Abuse Treatment Alliance be entered in the record.
    Mr. Conyers. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott. I want to site two statistics out of this. The 
first is that Dateline's ``To Catch a Predator'' series of over 
229 offenders who showed up or were prosecuted, four were 
registered sex offenders, which is 1.7 percent. The other is 
out of 36,229 registered sex offenders, only five committed an 
Internet sex crime, and that works out to a percentage of 0.138 
of a percent.
    That means well over 99 percent of the predatory offenders 
who are committing Internet sex crimes would not be affected by 
this legislation.
    Thank you, Mr. Chairman.
    I yield back.
    Mr. Conyers. I thank the gentleman and recognize the 
distinguished gentleman from Florida, Mr. Rick Keller.
    Mr. Keller. Thank you very much, Mr. Chairman, for 
recognizing me, and I also want to especially thank you for 
holding this important hearing on sex crimes and the Internet.
    The bottom line is that online child predators must be 
captured, prosecuted and locked away. The television show, 
Dateline's ``To Catch a Predator,'' has raised public awareness 
about the seriousness of the problem we have in this country 
right now with online predators. Specifically, it shows us the 
problem we have with predators who communicate online with the 
child or someone who they believe to be a child and then travel 
to meet that person for the purpose of sexually abusing him or 
her.
    It also shows us the problem we have with something called 
grooming, a behavior where predators pretend to be younger than 
they are and lie about their age in order to entice their 
victims. Currently, Florida is the only State in the Nation 
which has a law specifically targeting the criminal practice of 
grooming. I think that is an important issue to address, and, 
in fact, I will be introducing legislation with my colleagues 
on that issue.
    I do have optimism that this is an issue that we can do 
something about.
    On Monday, I joined with the Florida Attorney General Bill 
McCollum to cut the ribbon on the Child Predator Cyber Crime 
Unit in my hometown of Orlando which is staffed with six full-
time employees who sit there much like on the TV show ``To 
Catch a Predator'' and coordinate with investigators, police 
officers and prosecutors to go out and capture the worse 
abusers.
    This problem is so bad that all of us on both sides of the 
aisle need to drop what we are doing and address it. Seventy-
seven million children in this country use the Internet daily, 
and one out of seven children in America between the ages of 10 
and 17 are sexually solicited on line.
    It is clearly a problem worthy of this important hearing, 
and I want to especially thank our witnesses, the Members of 
Congress, who have taken the time to draft thoughtful 
legislation and will be testifying today. And also I want to 
especially thank the second panel who will be made up of a 
broad cross-section of experts because we look very much 
forward to hearing your ideas.
    And, Mr. Chairman, I will yield back the balance of my 
time.
    Mr. Conyers. I thank you very much, Mr. Keller.
    And of course we will receive all other opening statements 
of Members.
    We have two panels today plus a very important and 
distinguished speaker.
    Our first speaker is Alicia Kozakiewicz. This brave young 
woman will describe her own personal experience with the issues 
that we consider today.
    And I thank my colleagues, particularly the Ranking Member 
from Texas, Mr. Smith, for permitting us to call her out of 
turn because of her time schedule. She must leave immediately 
upon completing her testimony.
    And there are several House Members who have introduced 
legislation on this issue who have agreed to briefly testify 
about their bills. We don't expect them to respond to 
questions, though they may be asked to answer written questions 
that will be submitted.
    We will conclude with another panel from law enforcement 
and from the Internet provider industry.
    Our lead-off witness can give a real voice to what this 
issue is all about, and I welcome her to the Committee. She is 
here today not only as a survivor, but she is sure to warn 
others of the dangers of the Internet to help us protect our 
kids.
    Welcome to our hearing, and I would invite you to give us 
your testimony at this point.

                TESTIMONY OF ALICIA KOZAKIEWICZ

    Ms. Kozakiewicz. Thank you, Mr. Chairman.
    Hello. Thank you for inviting me to speak today.
    My name is Alicia Kozakiewicz, a Pittsburgh resident. I am 
19 years old and a sophomore in college. And for the benefit of 
those of you who don't know, don't remember those headlines, I 
am that 13-year-old girl who was lured by an Internet predator, 
transported across State lines to Virginia, in fact, not so 
very far from here, and enslaved by a sadistic pedophile 
monster.
    The authorities told my parents that the odds were a 
million to one against my recovery. But I was the exception. I 
got the miracle. I was rescued.
    So why me? Because I was blessed by the simple fact that I 
live in Pittsburgh, where one of the very best cyber crime task 
forces was created, and because I was enslaved in Virginia, 
where one of the best Internet Crimes Against Children 
taskforces, or ICAC, exists. Because they had the training, the 
knowledge and the expertise to find that needle in the 
haystack. That was--I was a lost little girl. That was me. 
Because they had the cooperation of another fine ICAC team here 
in Virginia, because they were there, I am here. They are the 
only reason that I am here in front of you today.
    But I want you to know that I am not up here alone. Beside 
me there are so many young girls whose stories will never be 
heard because they are dead, possibly enslaved or just too 
terrified to speak out.
    When I speak, what I say is for all of us who exist in pain 
and fear and sometimes even shame and for those of us who have 
been silenced by the grave.
    So I guess you need to know how it happened, and why I let 
it happen to me. I want you to stop thinking that right now. I 
was a young girl and just because someone leaves without a 
struggle doesn't mean that they left willingly. It has been 5 
years, and I have just begun to answer that question myself.
    I know that many of you perceive that those of us who have 
been lured via the Internet as being the stereotypical wild 
child, drugs, broken families, searching for love you can't 
find at home. Nothing could be further from the truth. Many of 
us were the shy children, the wallflowers, not necessarily the 
geeks or the freaks, just not the partiers, and sometimes, as 
in my case, those that were very shy.
    The Internet provides a type of anonymity that allows a 
timid child to miraculously transform themselves. They are 
suddenly able to act without the fears that have constricted 
their daily lives. Take myself for an example.
    So in an attempt to impart some clarity here, let me start 
at the beginning. Pick a teenage girl, any one of us, and we 
will be suffering agonies over at least one and probably more 
of these situations:
    Imagine your 13th birthday was last month and for some 
ridiculous reason your parents still think you are a child. You 
are sitting home bored and lonely because your best friend 
decided that you are not so cool anymore and your other best 
friend has moved far away. That person you have an unbelievable 
crush on, they think you are the biggest geek. You have a D in 
algebra despite your best efforts and you won't be making the 
honor roll this semester. And nobody understands anything at 
all, nobody ever will. You are alone in this world and you are 
so bored, so lonely that you are online just chatting.
    So let me start closer to the beginning. I was 13. I was a 
good student. I had a few good friends. I had the most 
wonderful, loving and supportive family a child could ever ask 
for, and yet at 13 we change. We question everything, 
especially ourselves. I was that typical bored, shy and lonely 
child just looking for something to do.
    In the beginning, I chatted for months with Christeen, a 
beautiful red haired 14-year-old girl who just understood me 
all too well. We became the very best of friends. And we shared 
all of our thoughts, all of our intimate girlhood secrets. 
There was nothing that she didn't know about me, and we traded 
our school pictures.
    Too bad that hers were fake. Yeah. Christeen was really a 
middle-aged pervert named John. And he had lots of practice at 
his little masquerade because he had it all down, the 
abbreviations, the music, the slang, the clothes. He knew it 
all. I never had a chance because these perverts, they 
congregate on the Internet. They pass their little girlfriends 
around to each other, and they share techniques and they boast 
in their conquests. John/Christeen was to introduce me to a 
great friend of hers. This man was to be my abductor, my 
torturer, and he was my dearest friend.
    My relationship on line with Tyree grew slowly, over a 
period of about 6 months. He was courteous and interesting and 
subtle. He was thoughtful and gentle and nice, and of course 
entirely deceptive, and so we became friends.
    Slowly and perceptively, he led me into more intimate 
conversations. I never even realized that our chats had become 
more intimate. So we just talked about everything. Not just 
about sex. He was interested in me as a person. My thoughts, my 
goals, my relationship with friends and family members. He gave 
me adult advice and always took my side, and that was just what 
I needed.
    School was, well, it was school. Mean girls and nasty boys 
and everyone trying to be all that they are not, and my family 
and I were very close but we didn't always see eye to eye about 
everything. Sometimes we just seemed to still think that I was 
still a child, but there was always my secret special friend, 
and I could count on him to see things my way.
    He was my confidant, and I wanted to tell him personal 
things or parrot those things that they wanted to hear from me, 
whatever gibberish they were. And so I did. Always online, 
always ready to talk, always on my side. It was the most 
comforting thing imaginable, and soon I felt an obligation to 
return this time, to always be there for him to the exclusion 
of everything else.
    He became that someone I believed I needed, the only one I 
could depend on to understand the real me. He had separated me 
from my support structures. I was alone.
    Somehow in this process of grooming me, he had changed me. 
How he destroyed my ability of reason? Was I crazy? No. Was I 
brain washed? Entirely. Today I think, how could it have 
happened? What was my reason? Where was my sanity?
    That girl who walked out into the coldest, iciest night of 
the year to meet the madman, that wasn't me, and yet somehow it 
was.
    He took me apart and put me back together, and bit by bit, 
day by day, byte by byte.
    I walked out the front door and found that the boogeyman is 
real and he lives on the Web. I know. I met him on the evening 
of January 1, 2002. He came for a 13-year old girl for a sex 
slave. He came for me.
    Let me share these next words with you. I think they may be 
what you need to know to understand.
    Imagine, it is below zero as you make your coatless way out 
the front door to meet this madman that you think is your 
friend. Maybe at this point you are afraid. Maybe there is 
something wrong here, but you can't stop yourself. So maybe you 
will think the game is over. When you get to the bottom of your 
driveway and you stand there shivering, cowering behind a bush 
on a dark night, the falling crystals sting your face, just 
curious to see if he will really show up. You are not really 
going to leave with him. Probably you won't even reveal 
yourself to him.
    But he is your friend, your best friend. Maybe you will 
just be polite and say hi. But then somehow wait a minute, you 
don't remember walking over to the car, do you? And yet 
suddenly you are in the car, terrified, and he is grabbing on 
to your hand and crushing it and you cry out but there is no 
one to hear. And you know this is not your friend. It is some 
crazy, fat pervert who threatens to put you in the trunk if you 
make another noise, give him any trouble. So you stay quiet, 
real quiet.
    And somehow you survive the long terrifying ride to the 
unknown. Each moment you get further away from your home from 
everyone who loves you, who might have saved you. You realize 
that you are about to die horribly. And you know on some level 
that there is only you now. You are totally alone, and you know 
if you want to live he has to believe that you will do anything 
for him. And you decide that you will, that you are going to 
survive this no matter what it takes.
    So you try to memorize road signs but nothing registers. 
You can't concentrate past the blinding fear. The signs on the 
road, no hope there. Where am I, you cry silently to yourself, 
and then hours later, eternities later, you arrive.
    He opens the door, warning you yet again but somehow the 
words don't seem to make sense. They float into the air 
disappearing one by one as his fat sweaty hands holds tightly 
squeezing your hand as you stumble through this door, through 
the house and down, down into his basement. His disgusting 
dungeon.
    Cold dark walls filled with nasty sex toys and a cage. Over 
the next days, he will use many of them on you. And between the 
beatings and the rapings, he will hang you by your arms while 
beating you, and he will share his prized pictures with his 
friends over the Internet.
    He will attach clamps to your body, and he will use them to 
send bolts of electricity into your body. He will beat and 
overpower you and crush you as he violates every inch of your 
90-pound body.
    When he is finished with his fun, he will place a collar 
around your neck and attach a huge heavy chain to prevent your 
escape, and you know he will kill you if he even thinks you 
want to leave. So you wait and you pray.
    And in your dreams, you begin to see that cold shallow 
grave waiting for your little lifeless body, and you cry 
silently, mommy, daddy, I am here. Please find me.
    The last morning as he left for the office he grabbed my 
face and looking deep in my eyes he said, I think I am getting 
to like you a little too much. When I come home, we are going 
for a ride.
    This was the 21st day that he had held me. My last meal I 
thought. And I knew that I would die today. Mommy, daddy, 
please hurry, I prayed.
    I laid there crying holding his kitten, my tears wetting 
her fur waiting for death when I suddenly heard the loudest 
crash. Voices screaming, we have guns. We have guns. And 
dragging a heavy chain behind me as I huddled underneath the 
bed, terrified as the men swarmed the house, I saw the most 
beautiful letters in the alphabet: FBI, in bold yellow on the 
backs of their jackets, and I knew that I was safe, and that my 
prayers had been answered.
    An agent covered my nakedness with a coat and cut the 
collar from my neck and took me from that evil house. The FBI, 
the ICAT, they are my angels. I like to say that they could 
walk on water, but they don't need to. Angels have wings.
    I spent a lifetime in that house.
    A year after my rescue, the Detective, Jim More, who had 
escorted the child that was me from that horror, drove me back 
to the house. It sits in a friendly little street, quietly 
cheerfully yellow. I walked up to the squeaky clean basement 
windows, the ones that had been painted black so that no 
passerby could peer in and stop his little games, and I see a 
toy. A playroom. And I stumble. I cry inside. I am mourning for 
the child that was me, the child that was stolen from me. And 
make no mistake, that child was murdered. I know that some 
parts of me are there forever; the child I was is still chained 
in that room still suffering. And I am still trying to set her 
free and others like me.
    This is why I am a psychology major and why my 
concentration is in forensics. My ultimate career goal is to 
become a part of the ICAT forces to rescue a child and help to 
recover its soul because even though I have been rescued, I 
fear that I will never be recovered.
    Please support Congresswoman Debbie Wasserman Schultz's 
bill and Senator Joseph Biden's companion bill, S. 1738. 
Support the children. Save us from pedophiles, the 
pornographers, the monsters.
    The boogeyman is real, and he lives on the Internet. He 
lived in my computer, and he lives in yours. While we are 
sitting here, he is at home with your children. ICAC has forces 
all over this country and are poised to capture him to put him 
in that prison cell with the man that hurt me.
    They can do it. They want to do it. Don't you?
    Thank you.
    Mr. Conyers. Thank you, Ms. Kozakiewicz. Your testimony is 
inspirational and moving, and it will guide us as we move 
forward. I commend you for your unique bravery and obviously 
the determination to use your experience to make sure that what 
happened to you will not happen to anyone else.
    Thank you so much for joining us. The struggle continues, 
and the Committee will still be in touch with you, and we hope 
to be working forward in a rational way to put this problem on 
a national level and in perspective so that we can solve it.
    Thank you very much for coming. And because of your time 
considerations, we will excuse you at this time.
    Thank you.
    Oh, and that is your mother besides you?
    Mrs. Kozahiewicz. It is.
    Mr. Conyers. Thank you for being here as well, ma'am.
    Could I call the members of the panel forward?
    Earl Pomeroy, Nick Lampson, Marilyn Musgrave, Chris Carney, 
Debbie Wasserman Schultz, Member of the Committee, Cathy 
McMorris-Rodgers. We thank you all for being here.
    Earl Pomeroy of North Dakota will begin. He has played a 
leading role in both the enactment of the Adam Walsh Child 
Safety Protection Act, and the creation of the National Sex 
Offender Register, named in honor of a North Dakota student who 
was murdered by a repeat sex offender.
    He has also worked closely with i-SAFE, prevention-oriented 
Internet safety awareness program.
    I welcome all of my distinguished colleagues and ask Earl 
Pomeroy to begin when he is ready.

 TESTIMONY OF THE HONORABLE EARL POMEROY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF NORTH DAKOTA

    Mr. Pomeroy. Mr. Chairman, thank you very much.
    Today is my daughter's 14th birthday, and after hearing 
that last witness, I agree with you, Mr. Chairman, it was 
deeply moving testimony. We need to find a way to rationally 
protect our children.
    Mr. Chairman, Ranking Member Smith and Members of the 
Committee, thank you for inviting me to join you to discuss 
efforts to strengthen our laws in ways that will help protect 
children from being exploited by sexual predators on the 
Internet.
    Earlier this session, our departed friend Paul Gillmor and 
I introduced Keeping the Internet Devoid of Sexual Predators 
Act, the KIDS Act of 2007. The legislation addresses the threat 
of dangerous sex predators on the Internet by making it more 
difficult for convicted sex offenders to use social Internet 
working sites.
    Under the legislation, convicted sex offenders would have 
to register online identifiers, such as e-mail, domain names, 
Internet instant messaging addresses, and that will become part 
of the National Sex Offender Registry.
    These online identifiers would not be released to the 
public. They don't need the mail harassment or the kinds of 
things that might come if they were publicly released, but they 
would be made available to social networking sites, and these 
sites could choose to block the sex offenders from using those 
services, online social networking sites like MySpace, 
Facebook, Friendster, that are designed to help people keep in 
touch with old friends, make new ones.
    Unfortunately, these sites and other sites that host 
chatrooms, like Yahoo, AOL, Google, are also places where 
sexual predators can exploit young people, find out personal 
information about potential victims.
    Just last year in my home State of North Dakota, a Bismarck 
man was charged and convicted for luring a minor with a 
computer. According to the criminal complaint, he engaged in 
sexual talk in a chatroom with a 16-year-old girl and tried 
repeatedly to get her to meet him. Fortunately, in that case 
the father intervened and put a stop to it. Of course as we 
heard testimony today, that is not always the case.
    Now one of these sites, MySpace, has done something pretty 
extraordinary to protect the young people using that site. They 
painstakingly created their own database from various State sex 
offender registries to find high risk sex offenders that were 
utilizing the MySpace network.
    Using this data, MySpace has recently removed the profiles 
of 29,000 registered sex offenders, 10 profiles from North 
Dakota. They should be commended for taking this action on 
MySpace. It has been difficult. It has been expensive. It has 
not been without controversy. But as a parent of teenager, I 
and many others applaud their action and we hope others follow 
this.
    But we ought to make it easier. Social networking sites are 
only able to use the information about a convicted sex 
offender's physical attributes and locations to remove these 
individuals because there is no mechanism to gain access to 
their online identifiers. By requiring sex offenders to 
register their e-mail addresses, the legislation will help 
social networking sites prevent convicted sex offenders from 
registering for their services as well as identify those 
convicted sex offenders who may currently be using their 
services.
    Basically we are asking the Committee to consider this a 
balancing of the interest, the strong public interest in 
protecting the young people using these social networking sites 
versus the access right of a high-risk convicted sex offender 
to use, to access that site. In this balancing, we believe the 
balance strongly comes down in favor of protecting the 
juveniles using these sites.
    There is a second feature of the KIDS Act. It involves 
shamefully lying about one's age for purposes of establishing a 
sexual relationship with a minor. We are seeing sex predators 
increasingly using the anonymous nature of the Internet to pose 
as children, gain their trust, and engage in this process 
called grooming. But we believe that someone engaging in this 
kind of deception ought to face criminal penalty, and we have 
one in the bill.
    This bill is identical to Senate legislation introduced by 
Senator Schumer from New York and Senator McCain from Arizona. 
It has received support from several organizations: MySpace, 
Boy Club, Girl Club, National Center for exploited children, 
Enough is Enough, a nonprofit that works for keeping kids safe 
online, the National Association of School Resource Officers. 
Eleven States have taken this action.
    But I think we all understand this isn't a state-by-state 
issue. It is a national issue, and it needs this legislation. 
The Internet is truly transformational technology, 21 million 
kids on it every day.
    So I believe that this bill, the KIDS Act, H.R. 719, is a 
fair and reasonable response to secure our children's safety. 
If Paul Gillmor was with us today, he would be right here with 
me testifying as well.
    We urge you to favorably consider this legislation.
    Thank you for your time.
    [The prepared statement of Mr. Pomeroy follows:]

 Prepared Statement of the Honorable Earl Pomeroy, a Representative in 
                Congress from the State of North Dakota

    Mr. Chairman, Ranking Member Smith, and members of the Committee, 
thank you for inviting me to join you to discuss efforts to strengthen 
our laws in ways that will help protect children from being exploited 
by sexual predators through the Internet.
    Earlier this session, our departed friend Rep. Paul Gillmor (R-OH) 
and I introduced the ``Keeping the Internet Devoid of Sexual Predators 
Act of 2007'' known as the KIDS Act of 2007. This legislation addresses 
the threat of dangerous sex predators on the Internet by making it more 
difficult for convicted sex offenders to use social networking sites. 
Under this legislation, convicted sex offenders would have to register 
online identifiers, such as e-mail and instant message addresses, which 
would become part of the National Sex Offender Registry. While these 
online identifiers would not be released to the general public, this 
information would be made available to social networking sites which 
could choose to block sex offenders from using their services.
    Online social networking sites like MySpace, Facebook, and 
Friendster are designed to help people keep in touch with old friends 
and to meet new ones. Unfortunately, these sites and sites that host 
chat rooms like Yahoo, AOL and Google are also places where sexual 
predators can exploit young people and find personal information about 
potential victims. Just last year in my home state of North Dakota, a 
Bismarck man was charged and convicted for luring a minor with a 
computer. According to the criminal complaint, he engaged in sexual 
talk in a chat room with a 16-year-old-girl and tried repeatedly to get 
her to meet him. He was finally caught after the girl's father 
contacted the police. While this father was able to discover that 
someone was preying on his daughter online, parents are not always able 
to monitor their child's online communications in time to prevent 
terrible tragedies from occurring.
    One of these sites, MySpace, has taken extraordinary measures to 
proactively address this threat to the young people using their site. 
They painstakingly created a database from various state sex offender 
registries to find high risk convicted sex offenders who were utilizing 
the MySpace network. Using this data, MySpace has recently removed the 
profiles of 29,000 registered sex offenders, including 10 profiles of 
North Dakota residents. MySpace should be commended for taking this 
action. It has been difficult, expensive and not without controversy. 
As the parent of a teenager, however, I and many others applaud their 
actions and hope other follow.
    The reality is, however, that MySpace and other social networking 
sites and chatrooms need our help. Currently, social networking sites 
like MySpace are only able to use information about convicted sex 
offender's physical attributes and locations in order to remove these 
individuals because there is no mechanism for these sites to gain 
access to their online identifiers. By requiring convicted sex 
offenders to register their email addresses and other online 
identifiers, this legislation will help social networking sites prevent 
convicted sex offenders from registering for their services as well as 
identify those convicted sex offenders who may currently be using their 
services. Additionally, this legislation would provide criminal 
penalties of up to 10 years for those convicted sex offenders who try 
to get around these protections by lying about their online 
identifiers.
    A second feature of the KIDS Act addresses the shameful scam of 
lying about one's age for purposes of establishing an illegal sexual 
relationship with a minor. Increasingly, child predators are using the 
anonymous nature of the Internet to pose as children online in order to 
gain the trust of a child. Alarming, nearly one in eight youth ages 8-
18 discovered that someone they were communicating with online was an 
adult pretending to be much younger. This is shameful and unacceptable. 
The KIDS Act of 2007 would target this type of a behavior by making it 
a crime for an adult to lie about their age with the intent to solicit 
a minor for sexual purposes.
    This common-sense bill is identical to bipartisan legislation 
introduced by Senators Chuck Schumer (D-NY) and John McCain (R-AZ), and 
I thank them for their important leadership on keeping our kids safe. 
It has received support from several organizations interested in 
Internet safety including MySpace; the Boys and Girls Clubs of America; 
the National Center for Missing and Exploited Children; Enough Is 
Enough, a non-profit that works on protecting kids online; and the 
National Association of School Resource Officers.
    Since the introduction of the KIDS Act of 2007, eleven states 
including Arizona, Colorado, Connecticut, Florida, Illinois, Kansas, 
Kentucky, Louisiana, Mississippi, Oklahoma, and Virginia have passed 
similar legislation requiring sex offenders to register their online 
identifiers. Moreover, nearly a dozen other states are currently 
considering similar legislation to protect our children from sexual 
predators on the Internet. The reality is, however, this isn't a state 
issue--it's an issue for all of us. We need to make certain all of the 
country is making the effort to keep convicted high risk offenders off 
these social networking sites.
    The Internet is truly transformational technology that over 21 
million teens--87% of kids across the nation--take advantage of 
everyday. Unfortunately, law enforcement and law makers have not been 
able to keep up with those who would abuse this technology. It is 
critically important that Congress update our laws to keep our children 
safe. I believe that H.R. 719 is a fair and reasonable response to 
further secure our children's safety, and I would deeply appreciate 
your assistance in moving legislation on this issue through the 
Committee and to the floor of the House of Representatives. I 
appreciate the Committee's full and fair consideration of this bill and 
I thank you for your attention to this important matter.

    Mr. Conyers. Thank you for getting us off on this 
discussion.
    The gentleman from Texas, Nick Lampson, was just in his 
first term in 1997 and a family in his district suffered a 
horrible crime.
    I will let him tell you about it. But Nick Lampson 
responded by establishing the Congressional Missing and 
Exploited Children's Caucus, of which many of us are members, 
just about an equal number of Republicans and Democrats, over 
130 members. He has been recognized by John Walsh, host of 
America's Most Wanted and the National Center for Missing and 
Exploited Children, for his work to protect kids.
    And I invite him to share his thoughts on this subject with 
us this afternoon.
    Welcome, Nick.

 TESTIMONY OF THE HONORABLE NICK LAMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Lampson. Thank you. It is a pleasure to be here, 
Chairman Conyers, Ranking Member Forbes, distinguished Members 
of the Committee.
    I thank you for calling this hearing to order, and I thank 
you for inviting me to testify this afternoon on obviously a 
critically important issue.
    The stories of Internet predators praying on innocents 
making their way into our children's bedrooms with a simple 
click of a mouse are seen and heard too often in our media. The 
age of sweet 16 used to be about parties and learning to drive, 
but now it marks the threshold of Internet freedom. Popular 
social Internet working Web sites allow profiles to be public, 
providing predators with an encyclopedia with pictures and even 
addresses which they can use to cause harm.
    This dangerous trend has become a feeding ground for 
pedophiles and for convicted sex offenders. Parents, law 
enforcement and legislation must work together to bring social 
networking Web sites into the fight to protect America's 
children.
    And I have joined with one of my distinguished colleagues, 
Congressman Steve Chabot--he is also cochair of the 
Congressional Caucus on Missing and Exploited Children--in 
introducing the Securing Adolescents From Exploitation online, 
the SAFE Act of 2007.
    The SAFE Act provides increased resources for law 
enforcement to capture and to prosecute and to incarcerate 
these criminals. By expanding the system for service providers 
to report child pornography found on their systems, we improve 
child safety and prevent future atrocities.
    Currently, Internet providers are mandated to report child 
pornography to the National Center for Missing and Exploited 
Children. Under the SAFE Act, all electronic service 
communications providers and remote computing service providers 
will have to report child pornography. And for knowingly or 
willingly not filing a report after being made aware of a child 
pornography image, these providers will be subjected to fines 
of $150,000 per image per day for the first offense and up to 
$300,000 per image per day for any image found thereafter.
    Over 10 years ago, Mr. Chairman, as you just stated, I 
founded the bipartisan Caucus on Missing and Exploited Children 
after a young girl was abducted and murdered in my district. 
They found her body in pieces in a drainage ditch. It was a 
horrendous thing to have happen, and it was an even worse part 
to play in being there with her family at the time that that 
discovery was made.
    And since then, I have continued to work extensively with 
organizations such as the National Center for Missing and 
Exploited Children on educating Members of Congress and others 
on legislation such as the SAFE Act that strengthens the 
national center's ability to keep children safer online and on 
our streets.
    The SAFE Act provides limited immunity for electronic 
providers and social networking Web sites to send images of 
Internet child pornography to the national center's 
CyberTipline, and this bill will also increase the efficiency 
of the tip line, making it a better investigative tool for law 
enforcement by mandating that all information submitted by 
providers is consistent. The process outlined in this bill 
keeps law enforcement officials in the loop by making 
information more readily accessible and requires providers to 
retain key data that law enforcement agencies can use to 
investigate and prosecute child predators.
    Many of us have watched Dateline's popular series, ``To 
Catch a Predator,'' and organizations such as Perverted Justice 
that actively look for Internet child predators. We need to 
become partners in this fight by talking to our kids about the 
dangers of strangers online and making Internet use a family 
activity.
    While parents should teach their children that the Internet 
offers many different types of resources, from education to 
entertainment, it also poses many risks. Parents are the first 
line of defense against online predators, and the SAFE Act will 
enforce their efforts.
    Internet companies will need to do their part also. When we 
begin to hold Web sites accountable for the images they host, 
we have taken the first step towards supporting parents in 
their efforts to protect children.
    Our combined efforts will make the Internet a safe place.
    So, Mr. Chairman and the Committee, thank you very much for 
calling this hearing to order. I appreciate your good work.
    [The prepared statement of Mr. Lampson follows:]

 Prepared Statement of the Honorable Nick Lampson, a Representative in 
                    Congress from the State of Texas

    Thank you, Mr. Chairman for calling this hearing to order. And 
thank you for inviting me to testify this afternoon on this critically 
important topic.
    Stories of Internet predators preying on innocence, making their 
way into our children's bedrooms with the simple click of a mouse are 
seen and heard too often in the media. The age of sweet sixteen used to 
be about parties and learning to drive, but now it marks the threshold 
of Internet freedom. Popular social networking websites allow profiles 
to be public--providing predators with an encyclopedia of pictures, 
personal interests, and even addresses, which they can use to cause 
harm.
    This dangerous trend has become a feeding ground for pedophiles and 
convicted sex offenders. Parents, law enforcement and legislators must 
work together to bring social networking websites into the fight to 
protect America's children.
    I've joined with one of my co-chairs of the Congressional Missing 
and Exploited Children's Caucus, Congressman Steve Chabot, in 
introducing the Securing Adolescents From Exploitation-Online (SAFE) 
Act of 2007. The SAFE Act provides increased resources for law 
enforcement to capture and prosecute and incarcerate these criminals. 
By expanding the system for service providers to report child 
pornography found on their systems, we improve child safety and prevent 
future atrocities.
    Currently Internet service providers are mandated to report child 
pornography to the National Center for Missing & Exploited Children. 
Under the SAFE Act, all electronic service communications providers and 
remote computing service providers will have to report child 
pornography. For knowingly and willingly not filing a report after 
being made aware of a child pornography image, these providers will be 
subject to increased fines of $150,000 per image per day for the first 
offense, and up to $300,000 for any image found thereafter.
    Over 10 years ago I created the bipartisan Congressional Missing 
and Exploited Children's Caucus after a young girl was kidnapped and 
murdered in my district. Since, I have continued to work extensively 
with organizations such as the National Center for Missing & Exploited 
Children on educating Members of Congress and others on legislation 
such as the SAFE Act that strengthen the National Center's ability to 
keep children safer online and on our streets. The SAFE Act provides 
limited immunity for electronic service providers and social networking 
websites to send images of Internet child pornography to the National 
Center's CyberTipline.
    This bill will also increase the efficiency of the CyberTipline, 
making it a better investigative tool for law enforcement by mandating 
that all information submitted by providers is consistent. The process 
outlined in this bill keeps law enforcement officials in the loop by 
making information more readily accessible, and requires providers to 
retain key data that law enforcement agencies can use to investigate 
and prosecute child predators.
    Many of us have watched Dateline's popular series ``To Catch a 
Predator,'' and organizations such as Perverted Justice that actively 
look for Internet child predators. We need to become partners in this 
fight by talking to our kids about the dangers of strangers online and 
making Internet use a family activity. While parents should teach their 
children that the Internet offers many different types of resources--
from entertainment to educational--it also poses many risks. Parents 
are the first line of defense against online predators and the SAFE Act 
will reinforce their efforts.
    Internet companies will need to do their part too. When we begin to 
hold websites accountable for the images they host, we've taken the 
first step toward supporting parents in their efforts to protect 
children. Our combined efforts will help make the Internet a safer 
place.
    Thank you again, Mr. Chairman, for calling this hearing to order.

    Mr. Conyers. We appreciate your experience and your 
leadership in this subject matter.
    I am now pleased to call Congresswoman Marilyn Musgrave of 
Colorado.

 TESTIMONY OF THE HONORABLE MARILYN MUSGRAVE, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF COLORADO

    Ms. Musgrave. Thank you, Mr. Chairman, and thank you, 
Ranking Member Forbes, and distinguished Members of the 
Committee.
    You know, in the years that I have been in Congress and in 
the State legislature in Colorado, I have heard some difficult 
testimony, testimony that was very hard as we took in the 
information. And I believe the testimony of this young woman 
today was--I mean as a mother and a grandmother, it is just 
amazing to me that--``heinous'' does not describe the crimes 
that are being perpetrated on our children. So I thank you for 
holding this hearing today.
    The Internet has become a virtual playground for sexual 
predators and pedophiles who satiate their desire for child 
pornography with relative anonymity. Pedophiles can download 
images to their personal computers or, even worse, watch the 
sexual abuse of children in real-time.
    Child pornography consists of more than just pictures, 
visual depictions of children in suggestive poses. Rather, 
child pornography involves the rape, abuse, and molestation of 
innocent children, in some cases even involving infants as 
young as 3 months old.
    The National Center for Missing and Exploited Children 
CyberTipline receives reports of suspected Internet child 
pornography every day. Since its launch in 1998, the tip line 
has received nearly half a million child pornography reports, 
averaging almost over 1,400 tips per week.
    Child pornography is a profitable global criminal 
enterprise, and it is growing rapidly in technical 
sophistication in response to efforts to detect and disrupt 
these criminal operations.
    Child pornography is not even a crime in more than half of 
the 84 Interpol countries. Unfortunately, this means that many 
of the children victimized by child pornography are foreign and 
not protected by the laws of their country.
    My legislation makes important improvements to Federal law 
to help eliminate child pornography. Most importantly, the bill 
prohibits the access of child pornography.
    Although current law prohibits the possession, trafficking 
or transport of child pornography, a person who uses a computer 
who knowingly accesses child pornography intending to view it 
and who then views that child pornography can arguably avoid 
criminal liability as long as he or she does not download or 
print the images. The law must be amended to ensure that these 
offenders do not escape liability because of technicalities in 
the law, and this is something that my bill does.
    My legislation would make it a crime to knowingly access 
child pornography. My legislation also imposes mandatory 
penalties for possession of child pornography, increases civil 
penalties for Internet service providers who fail to report 
child pornography to law enforcement and provides mandatory 
restitution for child pornography victims.
    Currently, the penalty for sexual exploitation and 
possession of child pornography is a maximum of 10 years in 
prison. My bill would change this to make it a minimum of 2 
years and a maximum of 15 years.
    Current law requires Internet service providers who 
knowingly and willfully fail to report such violations to be 
subject to a criminal fine of up to $50,000 for the initial 
failure to report and $100,000 for each subsequent failure to 
report. My bill would triple the criminal fines available for 
knowing and willful failures to report, making the available 
fines $150,000 for the initial violation and $300,000 for each 
subsequent violation.
    In addition, the legislation would add civil fines for 
negligent failure to report a child pornography offense. The 
civil penalty is set at $50,000 for the initial violation and 
$100,000 for each subsequent violation.
    The Federal Communications Commission would be provided 
with the authority to levy the civil fines under this section 
and to make the necessary regulations in consultations with the 
Attorney General in order to carry the fines into effect and to 
provide an appropriate administrative review process.
    The restitution requirements in my bill would require 
offenders to pay the full amount to the victims--of the 
victim's losses, which could include medical services, therapy, 
and necessary transportation for treatment or care as a result 
of the offense, lost income, attorney's fees and any other 
losses as determined by the court.
    Another very important step my legislation takes is 
amending the definition of ``illicit sexual conduct.'' The 
definition of ``illicit sexual conduct'' for purposes of the 
sex tourism statutes is too narrow. It does not encompass a sex 
tourist who either travels for the purpose of producing child 
pornography or who produces child pornography in a foreign 
place or persons who facilitate that travel for financial gain. 
My legislation would amend the definition of ``illicit sexual 
conduct'' by adding production of child pornography to the 
definition.
    The Internet is an excellent resource for advancing 
communications, education and business. However, the ready 
access to explicit content, including child pornography, is 
dangerous to our children and harmful to society. It is our 
responsibility to protect children from becoming victims and 
better policing illegal content on the Internet is one way we 
can do this.
    I applaud the Committee for taking up this important issue, 
and I thank you again for your time.
    [The prepared statement of Ms. Musgrave follows:]

Prepared Statement of the Honorable Marilyn Musgrave, a Representative 
                in Congress from the State of Ciolorado

    Good afternoon Chairman Conyers and Ranking Member Smith. Thank you 
for holding a hearing on this very important topic. I appreciate the 
opportunity to testify about my bill, H.R. 3148, the Child Pornography 
Elimination Act of 2007.
    The Internet has become a virtual playground for sexual predators 
and pedophiles who satiate their desire for child pornography with 
relative anonymity. Pedophiles can download images to their personal 
computers or, even worse, watch the sexual abuse of children in real-
time.
    Child pornography consists of more than just visual depictions of 
children in suggestive poses; rather, child pornography specifically 
involves the rape, abuse and molestation of innocent children, some 
cases even involving infants as young as three months old.
    The National Center for Missing and Exploited Children CyberTipline 
receives reports of suspected Internet child pornography every day. 
Since its launch in 1998, the tipline has received nearly half a 
million child pornography reports, averaging almost 1,400 tips each 
week.
    Child pornography is a profitable, global criminal enterprise, and 
is growing rapidly in technical sophistication in response to efforts 
to detect and disrupt these criminal operations. Child pornography is 
not even a crime in more than half of the 184 Interpol countries. 
Unfortunately, this means that many of the children victimized by child 
pornography are foreign and not protected by the laws of their country.
    My legislation makes important improvements to federal law to help 
eliminate child pornography. Most importantly, the bill prohibits the 
access of child pornography.
    Although current law prohibits the possession, trafficking, or 
transport of child pornography, a person who uses a computer to 
knowingly access child pornography intending to view it, and who then 
views that child pornography, can arguably avoid criminal liability as 
long as he or she does not download or print the images. The law must 
be amended to ensure that these offenders do not escape liability 
because of technicality in the law, and this is something my bill does. 
It will criminalize the knowing access of child pornography.
    My legislation also imposes mandatory penalties for possession of 
child pornography, increases civil penalties for Internet Service 
Providers who fail to report child pornography to law enforcement, and 
provides mandatory restitution for child pornography victims.
    Currently, the penalty for sexual exploitation and possession of 
child pornography is a maximum of 10 years in prison; my bill would 
change this to make it a minimum of 2 years and a maximum of 15 years.
    Current law requires Internet Service Providers who knowingly and 
willfully fail to report such violations to be subject to a criminal 
fine of up to $50,000 for the initial failure to report and $100,000 
for each subsequent failure to report. My bill would triple the 
criminal fines available for knowing and willful failures to report, 
making the available fines $150,000 for the initial violation and 
$300,000 for each subsequent violation.
    In addition, the legislation would add civil fines for negligent 
failure to report a child pornography offense. The civil penalty is set 
at $50,000 for the initial violation and $100,000 for each subsequent 
violation. The Federal Communications Commission would be provided with 
the authority to levy the civil fines under this section and to make 
the necessary regulations, in consultation with the Attorney General, 
in order to carry the fines into effect and to provide an appropriate 
administrative review process.
    The restitution requirements in my bill would require offenders to 
pay the full amount of the victim's \1\ losses which could include: 
medical services, therapy, and necessary transportation as a result of 
the offense, lost income, attorney's fees, and any other losses as 
determined by the court.
---------------------------------------------------------------------------
    \1\ The term `victim' means the individual harmed as a result of a 
commission of a crime under this chapter, including, in the case of a 
victim who is under 18 years of age, incompetent, incapacitated, or 
deceased, the legal guardian of the victim or representative of the 
victim's estate, another family member, or any other person appointed 
as suitable by the court, but in no event shall the defendant be named 
as such representative or guardian.
---------------------------------------------------------------------------
    Another very important step my legislation takes is amending the 
definition of ``illicit sexual conduct.'' The definition of ``illicit 
sexual conduct'' for purposes of the sex tourism statutes is too narrow 
because it does not encompass a sex tourist who either travels for the 
purpose of producing child pornography or who produces child 
pornography in a foreign place or persons who facilitate that travel 
for financial gain. My legislation would amend the definition of 
``illicit sexual conduct'' by adding ``production of child 
pornography'' to the definition.
    The Internet is an excellent resource for advancing communications, 
education and business. However, the ready access to explicit content, 
including child pornography, is dangerous to our children and society. 
It is our responsibility to protect children from becoming victims, and 
better policing illegal content on the Internet is one way we can do 
this.
    I applaud the Committee for taking up this important issue and I 
thank you for your time.

    Mr. Conyers. Thank you.
    I failed to note that you were serving your second term as 
policy chair for the Western Caucus and served with great 
distinction as Ranking Member on the House Subcommittee on 
Specialty Courts.
    Again, your concern is evident by your statement.
    We welcome now the gentleman from Pennsylvania, Chris 
Carney, a political science professor at Penn State University 
who, ever since he got here, has made the issue of child 
protection one of his top priorities in the Congress.
    We are very pleased to have you this afternoon and invite 
you to make your testimony.

      TESTIMONY OF THE HONORABLE CHRISTOPHER P. CARNEY, A 
   REPRESENTATIVE IN CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Carney. Thank you for holding this important hearing 
regarding sex crimes and the Internet.
    Congressman Chabot and I have introduced bipartisan 
legislation as the Responsible and Effective Solutions for 
Children Entering Online Services Act of 2007, or RESCUE Online 
Services Act of 2007 for short.
    This legislation will allow the National Center for Missing 
and Exploited Children to share information and material 
related to child pornography with service and technology 
providers.
    This will assist in the development of technology to thwart 
pornography distribution, especially child pornography 
distribution. The Rescue Online Services Act of 2007 will allow 
the National Center for Missing and Exploited Children to 
forward incidents to foreign law enforcement agencies as well.
    It will enhance the quality and detail of information 
provided to the NCMEC by enabling early preservation of 
evidence at the point of referral, and this is critical to be 
able to capture the online signatures so we can capture the 
perpetrators.
    As a father of five, I strongly feel we need to do more to 
protect our children from online predators. My children spend 
hours a week online, and of course we cannot always be over 
their shoulder watching what they are doing.
    This is why Congressman Chabot and I are working in a 
bipartisan manner, and with the support of online industries we 
will accomplish our goal: protecting our children. This is a 
protection we owe to kids nationwide.
    I want to thank you, sir, for this opportunity to 
contribute to today's hearing.
    As a father and a Representative of Pennsylvania's 10th 
Congressional District, I look forward to working with this 
Committee in supporting the protection of children from online 
predators.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Carney follows:]
     Prepared Statement of the Honorable Christopher P. Carney, a 
       Representative in Congress from the State of Pennsylvania
    Thank you, Chairman Conyers and Ranking Member Smith for holding 
this important hearing regarding sex crimes and the internet.
    Congressman Chabot and I have introduced bipartisan legislation 
known as the Responsible and Effective Solutions for Children Entering 
Online Services Act of 2007 or RESCUE Online Services Act of 2007 for 
short.
    This legislation will allow The National Center for Missing and 
Exploited Children to share information and material related to child 
pornography with service and technology providers. This will assist in 
the development of technologies to thwart child pornography 
distribution.
    The RESCUE Online Services Act of 2007 will allow the National 
Center for Missing and Exploited Children to forward incidents to 
foreign law enforcement agencies.
    It will enhance the quality and detail of information provided to 
the National Center for Missing and Exploited Children by enabling 
early preservation of evidence at the point of referral.
    As a father of five, I strongly feel we need to do more to protect 
our children from online predators. This is why Congressman Chabot and 
I are working in a bipartisan manner, and with the support of online 
industries to accomplish our goal of protecting our children. We owe 
this protection to our children.
    Thank you for the opportunity to contribute to today's hearing. As 
a father of five, I look forward to working with this committee in 
support of protecting our children from online predators.

    Mr. Conyers. Thank you, Congressman Carney.
    Debbie Wasserman Schultz is in the Judiciary Committee 
hearing room here, 2141, a great deal of the time. We welcome 
the gentlelady from Florida as a witness for a change, and her 
sustained commitment to this subject matter is very, very 
appreciated.
    This summer she vigorously questioned the Federal Bureau of 
Investigation Director Mueller as to the FBI's attention to how 
they are fighting sex crimes, and I am not at all surprised 
that she would be with us in this capacity today.
    And Ms. Wasserman Schultz, we welcome you to your own 
Committee.

    TESTIMONY OF THE HONORABLE DEBBIE WASSERMAN SCHULTZ, A 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Mr. 
Chairman, I might borrow an extra 45 seconds that Congressman 
Carney left on the table. So I hope that is okay, and I 
appreciate the opportunity to testify.
    Mr. Conyers. You probably won't need it.
    Ms. Wasserman Schultz. I talk pretty fast.
    Ranking Member Forbes, Chairman Conyers, my distinguished 
colleagues of the Judiciary Committee and fellow panelists, you 
know, sometimes the problems we face as a Congress are 
extremely complex, and other times the solutions are simple and 
right in front of our eyes. As you will hear today, there is no 
mystery about what we need to do now to save thousands of 
children from sexual abuse and exploitation.
    In the last Congress our colleague and friend Joe Barton, 
then the Chairman of the Energy and Commerce Committee, 
conducted a series of hearings on this topic. Not only did 
those hearings expose the dearth of Federal resources devoted 
to investigating and prosecuting child exploitation crimes, but 
they also brought together an extraordinary group of parents 
who formed an organization called the Surviving Parents 
Coalition. In June of this year, I was visited by this very 
special group of parents.
    When I sat down with Mark Lunsford, Erin Runnion, Ed Smart, 
Mark Klaas, Mary Kozakiewicz, and other founders of the 
Surviving Parents Coalition, I was not prepared for what they 
had to tell me. They shared with me their own horrific stories 
of how their children were abducted by sexual predators. As you 
know, some of these children will never come home. As the 
mother of three young children myself, their stories broke my 
heart. And as a Member of Congress, I felt compelled to act.
    What surprised me most about these brave parents was their 
message about child pornography and child exploitation. What 
they said was this: If you want to prevent predators from 
hurting other children like ours, the way to do that is go back 
through the Internet and get them. Most children who are 
victims of sexual abuse are not abducted by strangers. They are 
violated by adults they know and often trust, including family 
members.
    But as we learned yesterday, with the apprehension of a 
predator in Las Vegas, Nevada, for the first time we have the 
technology and the evidence not only to find these predators, 
we have the technology to find their victims, too.
    This week Congressman Barton and I introduced H.R. 3845, a 
bipartisan bill called the Protect Our Children Act of 2007. 
This bill addresses an issue that Speaker Pelosi has dedicated 
her speakership to, and one that should be at the top of our 
agenda, the protection of children.
    Our children deserve a future that is healthy, prosperous, 
bright, and safe. But our children are vulnerable on the 
Internet. The Internet has facilitated an exploding multi-
billion dollar market for child pornography. The demand in this 
market can only be supplied by new images, and these images can 
only be supplied through the sexual assault of more children.
    A 2005 Justice Department study found that 80 percent of 
child pornography possessors had images and videos of children 
being sexually penetrated. Another 21 percent possessed images 
of bondage, sadistic abuse, and torture. The children depicted 
in these photos are very young. Eighty-three percent of child 
pornography possessors have images of children younger than 12 
years old, and another 19 percent possess images of infants and 
toddlers, as Congresswoman Musgrave mentioned. There are even 
Web sites that provide live pay-per-view rape of very young 
children.
    Let me be clear. This is not about obscenity or 
pornography. These images are crime scene photos created by a 
thriving industry that uses children as sexual commodities.
    Later in this hearing we will hear from Special Agent Flint 
Waters of the Wyoming State Police, a highly respected child 
exploitation investigator. His research established that right 
now there are nearly 500,000 identified individuals in the 
United States trafficking child pornography on the Internet. 
Law enforcement knows who they are and they know where they 
are. What shocked me most and what compelled me to get involved 
in this issue is that due to a lack of resources, law 
enforcement is investigating less than 2 percent of these known 
500,000 individuals. Even more shocking is that it is estimated 
that if we were to investigate these cases we could actually 
rescue child victims nearly 30 percent of the time.
    We need a national campaign. That means the full weight of 
law enforcement, the National Center for Missing and Exploited 
Children, Congress, the executive branch, parents and victims 
advocacy groups, and Internet service providers with us in the 
fight.
    Alicia Kozakiewicz is a living reminder of the lives we can 
save. She is not a victim; she is a survivor.
    The Protect Our Children Act will help provide the safety 
net we so desperately need by creating statutory authority for 
these highly successful Internet Crimes Against Children task 
forces which support State and local law enforcement agencies 
that investigate child exploitation. It will supplement this 
local effort with hundreds of new Federal agents who will be 
solely dedicated to crimes against children. It will also 
provide desperately needed forensic and computer labs so we can 
lift the digital fingerprints of these perpetrators and bring 
them to justice, as well as a special council within the 
Department of Justice to be created to plan and coordinate 
child exploitation prosecution efforts.
    I want to remind you about a conversation I had with FBI 
Director Mueller at an oversight hearing in this Committee in 
July. I asked him how many agents were dedicated exclusively to 
child exploitation. His answer was 242. 242. I asked him how 
many agents were dedicated exclusively to investigating white 
collar crime, and the answer was 2,342. Although he said child 
exploitation was a substantial priority, he also said that 
there were too many competing priorities. The time has come to 
reorder priorities at the Department of Justice, and the 
Protect Our Children Act will do just that. We must prevent 
predators from hurting our children.
    It is a privilege to serve on this Committee, Mr. Chairman. 
Thank you very much.
    [The prepared statement of Ms. Wasserman Schultz follows:]

    Prepared Statement of the Honorable Debbie Wasserman Schultz, a 
   Representative in Congress from the State of Florida, and Member, 
                       Committee on the Judiciary

    Chairman Conyers, Ranking Member Smith, distinguished colleagues of 
the Judiciary Committee, and fellow panelists:
    Thank you for the opportunity to appear before you today. It feels 
strange to be on this side of the dais, but I am grateful that you 
extended the invitation to me to testify about an issue I care deeply 
about--an issue I know is troubling to us all--the explosion of child 
pornography on the Internet and the horrific abuse that too many of our 
children suffer, at the hands of child sexual predators.
    Sometimes the problems we face as a Congress are extremely complex. 
Other times, the solutions are simple and right in front of our eyes. 
As you will hear today, there is no mystery about what we need to do--
NOW--to save thousands of children from sexual abuse and exploitation.
    In the last Congress, our colleague and friend Joe Barton, then the 
Chairman of the Energy and Commerce Committee, conducted a series of 
hearings on this topic. Not only did those hearings expose the dearth 
of federal resources devoted to investigating and prosecuting child 
exploitation crimes, but they also brought together an extraordinary 
group of parents who formed an organization called the Surviving 
Parents Coalition.
    In June of this year I was visited by this very special group of 
parents. When I sat down with Mark Lunsford, Erin Runnion, Ed Smart, 
Marc Klaas, Mary Kozakiewicz and other founders of the Surviving 
Parents Coalition, I was not prepared for what they had to tell me. 
They shared with me their own horrific stories of how their children 
were abducted by sexual predators. As you know, some of these children 
will never come home. As the mother of three young children, their 
stories broke my heart. But as a Member of Congress, I felt compelled 
to act. What surprised me most about these brave parents was their 
message about child pornography and child exploitation. What they said 
was this: if you want to prevent predators from hurting other children 
like ours, the way to do that is to go back through the Internet and 
get them.
    Most children who are victims of sexual abuse are not abducted by 
strangers. They are violated by adults they know and often trust, 
including family members. Tens of thousands of these children are 
prisoners in their own homes or keeping a dark secret from those who 
could protect them. But, as we learned yesterday with the apprehension 
of a predator in Las Vegas, Nevada, for the first time, we have the 
technology and the evidence not only to find these predators--we have 
the technology to find their victims, too.
    This week, Congressman Barton and I introduced H.R. 3845, a 
bipartisan bill called ``The PROTECT Our Children Act of 2007.'' The 
PROTECT Our Children Act is the kind of legislation that reminds us of 
why we enter public service and the moral responsibility we often have 
as we shape our nation's laws. The bill addresses an issue that Speaker 
Pelosi has dedicated her Speakership to and one that should be at the 
top of our agenda: the protection of children. Our children deserve a 
future that's healthy, prosperous, bright and SAFE!
    But our children are not safe when they are online. The Internet 
has facilitated an exploding, multi-billion dollar market for child 
pornography. The demand in this market can only be supplied by new 
images, and these images can only be supplied through the sexual 
assault of more children.
    A 2005 Justice Department study found that 80 percent of child 
pornography possessors have images and videos of children being 
sexually penetrated. Another 21 percent possess images of bondage, 
sadistic abuse and torture. The children depicted in these photos are 
very young: 83 percent of child pornography possessors have images of 
children between the ages of 6 and 12, and another 19 percent possess 
images of infants and toddlers. There are even websites that provide 
live ``pay-per-view'' rape of very young children.
    Let me be clear: This is not about ``obscenity'' or 
``pornography.'' These images are crime scene photos--created by a 
thriving industry that uses children as sexual commodities. This is a 
human rights issue.
    Later in this hearing we will hear from Special Agent Flint Waters 
of the Wyoming State Police--one of the most renowned and highly 
respected investigators on child exploitation today and the driving 
force behind the Internet Crimes Against Children Data Network. His 
research established that right now there are nearly 350,000 identified 
individuals in the United States trafficking child pornography on the 
Internet. That's 350,000 people, right here, in the United States, 
buying, swapping, selling, and sharing the kinds of images I just 
described. Law enforcement knows who they are, and they know WHERE they 
are.
    But what shocked me, and what compelled me to get involved in this 
issue, is that due to a lack of resources, law enforcement is 
investigating less than two percent of these known 350,000 individuals. 
Less than two percent!
    Even more shocking is that it is estimated that if we were to 
investigate these cases, we could actually rescue child victims nearly 
30 percent of the time. Research shows that more than half of child 
pornography possessors have also sexually assaulted or attempted to 
sexually assault children. Because child pornography prosecutions also 
have extremely high success rates, a national campaign against those 
who create, possess, and traffic in child pornography is the best way 
to prevent future sexual abuse. And we need the full weight of law 
enforcement, the National Center for Missing and Exploited Children, 
Congress, the Executive branch, parents and victims' advocacy groups, 
and Internet service providers with us in the fight.
    The Protect Our Children Act will help provide the safety net we so 
desperately need, by creating statutory authority for these highly 
successful ICAC Task Forces, which support state and local law 
enforcement agencies that investigate child exploitation. It will 
supplement this local effort with hundreds of new federal agents from 
the FBI and Immigration and Customs Enforcement that will be solely 
dedicated to crimes against children. It will provide desperately 
needed forensic crime and computer labs so we can lift the digital 
fingerprints of these perpetrators and bring them to justice. It will 
create a Special Counsel within the Department of Justice to not only 
plan and coordinate child exploitation prosecution efforts, but who 
will also be responsible for achieving results.
    I want to leave you with a conversation I had with FBI Director 
Mueller at an Oversight Hearing in this Committee in July. I asked him 
how many agents were dedicated exclusively to child exploitation. The 
answer was 242. I asked him how many agents were dedicated exclusively 
to investigating white-collar crime. The answer was 2,342. Although he 
said child exploitation was a ``substantial priority,'' he also said 
that there were too many ``competing priorities.'' The time has come to 
re-order priorities at the Department of Justice, and the PROTECT Our 
Children Act will do just that.
    Colleagues, the status quo is unaccepatable. Our mandate here is 
clear: if we want to prevent predators from hurting our children, we 
must not only provide federal, state, and local law enforcement the 
resources they need to go back through the Internet and get them--we 
must also re-order priorities at the Justice Department.
    Again, thank you for the opportunity to testify this afternoon. It 
is an honor to serve on this committee and to come before you.

    Mr. Conyers. And you are on the right Committee to make 
sure that the Department reorders its priorities. You have been 
doing this these last several months. I congratulate you.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Conyers. Finally, last, not least, is the congressional 
co-chair of the Women's Caucus, Cathy McMorris Rodgers of 
Washington. And we are delighted to have you. With your 
permission, we are going to excuse any of the Members. We have 
enough time to take her testimony. There are three votes on the 
floor. And we will resume as soon as those votes are concluded.
    We welcome you, Ms. Rodgers.

     TESTIMONY OF THE HONORABLE CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. McMorris Rodgers. Absolutely. Thank you, Mr. Chairman, 
Ranking Members Forbes, Members of the Committee. And I just 
join in being honored to be with you today. We have heard some 
compelling testimony, beginning with Alicia, as well as my 
fellow panelists, and I appreciate the chance to testify.
    As many of you know, I became a mom for the first time this 
year, and it has become more important to me than ever that I 
do everything possible to protect my son and, like any parent, 
protect kids from those who would do him and others harm.
    This year I was also introduced to social networking sites 
like MySpace and Facebook, and while intended mainly for high 
school students and college students, these sites, as we are 
all becoming aware, are being used by sexual predators as a way 
to prey on innocent children. As was mentioned earlier by 
Congressman Pomeroy, it has been reported in the press that 
MySpace.com has identified and taken action now on more than 
29,000 registered sex offenders, and we applaud them for their 
efforts.
    Today in America one in five children between the ages of 
10 and 17 will receive a sexual solicitation online during 
their lifetime. The FBI estimates there are as many as 50,000 
child predators prowling the Internet. The Internet has 
unfortunately become an easy avenue for predators to find 
unsuspecting victims. And that is why I have introduced 
legislation, the Sex Offender Internet Prohibition Act of 2007, 
which imposes mandatory penalties for individuals who are 
required to register as a sex offender and knowingly access a 
Web site with the intent to communicate with an unsuspecting 
child. This bill sends a clear message to sex offenders that if 
they use the Internet sites to contact children they will go to 
jail.
    Just a few days after I introduced this legislation, police 
in Peachtree, Georgia, arrested a 28-year-old man for 
exchanging sexually explicit e-mails and online chats with a 
14-year-old girl in Liberty Lake, Washington, a city in my 
district. Nearly 4,200 children in Spokane County were victims 
of physical abuse and sexual abuse or neglect in 2005. We must 
not only focus on keeping children safe from strangers they 
meet on the street, but protecting them from strangers they 
meet online.
    I would like to take a minute to commend Washington State 
Attorney General, Rob McKenna, for his work on this issue and 
for putting together a Youth Internet Safety Task Force, 
focusing on keeping the Internet safe for our kids. The goal of 
the task force is to address issues of online predation, while 
at the same time devising ways to combat the proliferation of 
child pornography, and ultimately sexual exploitation and 
victimization of children.
    Finally, I thank the Committee for the opportunity to 
testify. I am pleased that the Committee is holding this 
hearing today on an important component of our efforts to 
reduce crime and keep our communities safe.
    [The prepared statement of Ms. McMorris Rodgers follows:]

     Prepared Statement of the Honorable Cathy McMorris Rodgers, a 
        Representative in Congress from the State of Washington

    This year, as many of you know, I became a mom and it is important 
for me to keep my child safe as he grows up and protect him from anyone 
who would do him harm. Every parent has this wish.
    This year I was also introduced to social networking sites like 
MySpace and Facebook. And while intended mainly for high school and 
college students, these sites are now being used by sexual predators as 
a way to prey on innocent children.
    In fact, an Associated Press story recently reported that 
MySpace.com has identified more than 29,000 registered sex offenders 
with profiles--more than four times the number cited by the company two 
months ago. Today, 1 in 5 children between the ages of 10 and 17 will 
receive a sexual solicitation online during their lifetime. The FBI 
estimates that as many as 50,000 child predators are prowling the 
Internet.
    The Internet has unfortunately become an easy avenue for predators 
to find unsuspecting victims. That is why I have introduced 
legislation, the Sex Offender Internet Prohibition Act of 2007, which 
imposes mandatory penalties (5-10 yeas in prison) for individuals who 
are required to register as a sex offender and knowingly access a 
website with the intent to communicate with an unsuspecting child. This 
bill sends a clear message to sex offenders that if they use these 
Internet sites to contact children they will go to jail.
    In fact, a few days after I introduced the legislation police in 
Peachtree, George arrested a 28-year-old man for exchanging sexually 
explicit emails and online chats with a 14-year-old girl in Liberty 
Lake, Washington a city in my district. Nearly 4,200 children in 
Spokane County were victims of physical abuse, sexual abuse or neglect 
in 2005. We must not only focus on keeping children safe from strangers 
they meet on the street, but protecting them from strangers they meet 
online.
    I would like to take a minute to commend Washington State Attorney 
General Rob McKenna for his work on this issue and for putting together 
a Youth Internet Safety Task Force focused on keeping the Internet safe 
for our kids. The goal of the Task Force is to address issues of online 
predation while at the same time devising ways to combat the 
proliferation of child pornography and ultimately the sexual 
exploitation and victimization of children.
    Finally, I would like to thank the Committee for the opportunity to 
testify. I am pleased that the Committee is holding this hearing today 
as an important component of our efforts to reduce crime and keep our 
communities safe.

    Mr. Conyers. Thank you so much, everyone. We have another 
panel, and we are called to the floor. And we will resume as 
soon as those votes are disposed of. And I thank you, Mr. 
Forbes.
    [Recess.]
    Mr. Scott. [Presiding.] The Committee will come to order. 
We will now hear from our witnesses.
    Our first witness will be Michael Mason, Executive 
Assistant Director of the Criminal, Cyber Response, and 
Services Branch of the FBI. Since arriving at the FBI in 1985, 
he has worked in five FBI field divisions, worked as an 
undercover agent, and served on a SWAT team. He has served as 
Special Agent in Charge for the Sacramento field office, and as 
Assistant Director in Charge of the Washington field office, 
the FBI's second largest office.
    In his current position he oversees the Criminal 
Investigative Division, Cyber Division, Office of International 
Operations, Office of Law Enforcement Coordination, and the 
Critical Incident Response Group.
    Our second witness will be Laurence Rothenberg, who is 
Deputy Assistant Attorney General of the Department of 
Justice's Office of Legal Policy, where his responsibilities 
include helping develop the Department's legal policy regarding 
child exploitation and obscenity, violence against women, and 
trafficking in persons, among other issues.
    Next witness will be Special Agent Flint Waters, team 
leader for the Wyoming Internet Crimes Against Children Task 
Force, and lead developer of a task force data network. His 
work has led to the arrest of hundreds of Internet sex 
offenders around the world.
    Next will be Michelle Collins, Director of Exploited 
Children at the National Center for Missing and Exploited 
Children. Among her responsibilities, she directly oversees the 
Nation's CyberTipline, a congressionally-mandated recipient of 
reports on child exploitation for the public and all U.S.-based 
electronic service providers. She has published numerous 
articles on child sexual exploitation, and has helped 
coordinate 25 international law enforcement agencies for 
Operation Web Sweep, a worldwide child pornography sting 
conducted by the New Jersey Division of Criminal Justice.
    Our next witness will be Grier Weeks, the Executive 
Director of the National Association to Protect Children, a 
nonpartisan organization with members in 50 States. In 2002, 
Mr. Weeks was instrumental in bringing together national 
experts on child protection with political veterans to form 
Protect, a pro-child, anti-crime lobby focused exclusively on 
child protection. Since 2002, Protect has worked in a dozen 
State legislatures and nationally to win stronger child 
protection laws.
    Next we will hear from John Ryan, Chief Counsel to America 
Online, Incorporated. He heads the Compliance and 
Investigations Department, where he is responsible for the 
development and implementation of policies and processes to 
combat illegal activities on AOL services. He serves as the 
liaison with law enforcement to coordinate investigations and 
prosecutions of criminal activities, including offenses against 
minors, and serves as a board member at the National Center for 
Missing and Exploited Children.
    Our last witness will be Elizabeth Banker, Vice President 
and Associate General Counsel for Compliance at Yahoo, 
Incorporated. She manages the global law enforcement compliance 
function, and her team advises the company on child protection, 
information security, and related compliance issues. She is on 
the board of directors of the U.S. Internet Service Providers 
Association. She recently served on the Virginia Attorney 
General's Youth Internet Safety Task Force.
    So we will begin with Mr. Mason.

 TESTIMONY OF MICHAEL A. MASON, EXECUTIVE ASSISTANT DIRECTOR, 
       FBI, CRIMINAL, CYBER RESPONSE AND SERVICES BRANCH

    Mr. Mason. Good afternoon, Mr. Chairman, Ranking Member 
Forbes and Members of the Committee. I would like to thank you 
for the opportunity to discuss the FBI's role in combating the 
sexual exploitation of children through the use of the 
Internet.
    With more than one billion people around the world 
routinely online, the Internet has become an integral part of 
our daily lives. It has dramatically enhanced the way we 
communicate, the way we learn, and the way we work. Today I 
want to talk about what the FBI is doing to attack child 
exploitation on the Internet. I want to briefly touch on the 
scope of our efforts and the role parents and the private 
sector play in addressing this problem.
    One of our most important programs is the Innocent Images 
National Initiative, which for the past 11 years has targeted 
sexual predators who use the Internet to exploit children. 
Between 1996 and 2005, there were over 15,500 investigations 
opened in this program. During this 10-year period, the efforts 
of the Innocent Images National Initiative have resulted in the 
conviction of over 4,800 child predators.
    Facing increasing scrutiny, child predators are going 
further underground, using file sharing networks, encrypted Web 
sites, concealing their financial transactions through a maze 
of online payment services, and traveling to foreign countries 
to exploit minors.
    In pursuit of these criminals, we currently have 42 ongoing 
undercover operations across the country, with more than 240 
agents investigating cases with their State and local 
counterparts. The FBI also works with officers and analysts 
from Great Britain, Australia, Belarus, Thailand, and the 
Philippines, among other countries, at the Innocent Images 
International Task Force located in Calverton, Maryland.
    Identifying child predators is only part of the equation. 
We must also collect the evidence necessary to convict them. 
Child predation is a global threat that requires a global 
response. We have trained more than 16,000 law enforcement 
officers to handle digital forensic evidence, using a variety 
of tools, and an additional 4,600 on the use of a special tool 
known as the Image Scan. This program enables investigators to 
identify, isolate, and store images from a suspect's computer 
onto a thumb drive. This year we will conduct training with our 
international partners as well.
    The volume of evidence confronting FBI digital evidence 
forensic examiners is staggering. To address this ever-
increasing challenge, the FBI has deployed 25 state-of-the-art 
forensic networks to major FBI field offices, with 10 
additional offices scheduled to receive this equipment in 2008. 
These networks enable the FBI forensic examiners to more 
effectively process seized digital evidence for review by 
investigators on their desktop computers.
    Also in 2008, the FBI plans to establish the first computer 
forensic unit dedicated solely to the processing of Innocent 
Images evidence.
    Part of our job, and an integral part of the Project Safe 
Childhood, is to educate the public about child exploitation. A 
parent may see a Web cam as an easy and inexpensive way for a 
child to communicate with friends or relatives, but a predator 
sees it as an open window into a child's bedroom. In field 
offices around the country, agents are teaching parents the 
variety of tactics used by predators.
    We are also working with the media to get our message out. 
Our Endangered Child Alert Program, conducted in partnership 
with National Center for Missing and Exploited Children, and 
DOJ's Child Exploitation and Obscenity Section, uses national 
and international media exposure to identify unknown predators 
and victims. Since 2004, publicity on the FBI Web site and two 
national television shows have resulted in the arrest of 
approximately 17 predators and the identification of more than 
30 child victims.
    We have also enlisted the help of our private sector 
partners. We have asked Internet service providers and search 
engine operators to monitor their Web sites for child 
pornography and to alert us when they discover illegal content. 
We are working with Internet service providers, seeking 
assistance in the retention of records of online activities 
long enough so that when we identify predators and their 
activities, legal process will be effective to gather the 
necessary records in order to pursue successful prosecution.
    In closing, I want to recognize those who investigate and 
prosecute these cases. They deserve our respect, our 
admiration, and our gratitude. They have seen the darkest side 
of humanity, and continue to press on, as this is among the 
most important work we do.
    I would like to thank the Committee for addressing this 
very important issue and for allowing me to testify. I now look 
forward to answering your questions.
    [The prepared statement of Mr. Mason follows:]

                 Prepared Statement of Michael A. Mason

    Good morning Mr. Chairman, Ranking Member Smith and distinguished 
members of the Committee. I would like to thank you for the opportunity 
to address the FBI's role in combating the sexual exploitation of 
children through the use of the Internet.
    With more than one billion people around the world routinely 
online, the Internet has become an integral part of our daily lives. It 
has dramatically enhanced the way we communicate, the way we learn, and 
the way we work.
    As New York Times columnist Thomas L. Friedman wrote in his best-
selling book ``The World is Flat,'' the Internet has leveled the 
playing field, creating a convergence of people, places, knowledge, and 
information. We have gone global as individuals.
    However, globalization has brought about new challenges. Criminals 
are making ready use of the Internet, engaging in illegal activities 
ranging from credit card scams, consumer frauds, computer intrusions, 
money laundering and a host of other illegal activities. Terrorists 
around the world are recruiting, communicating and planning attacks, 
aided by laptops and Internet access.
    One of the most insidious uses of the Internet is for child sexual 
exploitation. An increasing amount of this exploitation takes place in 
the dark shadows of the Internet--on websites and message boards, 
through file sharing and e-mail, and in real time with web cams and 
streaming video.
    The assault on children is nothing new, however the internet grants 
a far greater level of immunity to those who would prey on our 
children. As a result, there can be no tolerance and no retreat in our 
efforts to combat this scourge. We cannot and will not rest until these 
predators are shut down and locked up. That is why coordinated efforts 
like Project Safe Childhood, which brings federal, state, and local law 
enforcement and prosecutors together in task forces led by the local 
United States Attorney to combat online child sexual exploitation, are 
so important.
    Today I want to talk about what we in the FBI are doing to attack 
child exploitation on the Internet. I want to touch on what we do in 
terms of evidence collection and prosecution. Lastly, I want to talk 
about the role of both parents and the private sector in addressing 
this problem.
    One of our most important programs is the Innocent Images National 
Initiative, which for 11 years has targeted sexual predators who use 
the Internet to exploit children. Unfortunately, there is no shortage 
of work in this arena. Between fiscal years 1996 and 2005 there were 
over 15,556 investigations opened in this program. In 2005 alone, there 
were over 2,500 cases opened as opposed to 113 in 1996. This represents 
an increase of 2050%. During this ten year period, investigations under 
the Innocent Images National Initiative have resulted in 4,784 
individuals being charged, 6,145 individuals being arrested, located or 
summoned to appear in a court of law and 4,822 convictions being 
obtained.
    We have ongoing undercover operations across the country, with more 
than 240 agents who investigate cases with their state and local 
counterparts.
    On any given day, these investigators may pose as children to lure 
online predators into the open. They may pose as collectors seeking to 
share images through peer-to-peer networks. They may coordinate with 
the National Center for Missing & Exploited Children to identify 
children and adults featured in child pornography. Or they may train 
police officers to investigate cases in their own jurisdictions.
    With heightened scrutiny in the United States, child pornographers 
are going further underground, using file-sharing networks and 
encrypted websites. They are concealing their financial mechanisms 
through a maze of online payment services, including the use of stolen 
credit cards. They are traveling to foreign countries to exploit 
minors. They are victimizing more children, in more ways, at younger 
and younger ages.
    In one instance, agents in Chicago searched a predator's residence 
and found a customized computer with five hard drives and several 
external drives. They seized more than a terabyte of digital evidence--
the equivalent of more than one million paperback books. This man has 
been sentenced to 20 years in prison not only for distributing 
pornography, but for producing images of his own resulting in the 
victimization of a minor child.
    In another such case, a cyber agent traced images downloaded from a 
file-sharing network to a man in the Pittsburgh area. Together, agents 
and members of the High Tech Crimes Task Force seized more than 2,500 
images of highly graphic child pornography, housed everywhere from the 
subject's computer to DVDs to his Apple iPod.
    These cases are significant not just because of the amount of 
material seized, but because of our collaboration with state and local 
counterparts.
    This coordination is not limited to the national level. Police 
officers from Britain, Australia, Belarus, Thailand, and the 
Philippines, among others, work with agents and analysts on the 
Innocent Images International Task Force in Calverton, Maryland.
    Our international partners know the language, the customs, and the 
cultures of their home countries. Today, information that once took 
weeks or even months to relay can be exchanged simply by walking across 
the room. Together, we have convicted a number of child predators 
around the world.
    For example, last October, Ukrainian investigators arrested a man 
associated with a young girl featured on a pornographic website. The 
man had received money and gifts in exchange for allowing the girl to 
be sexually abused on camera. This investigation started in Denmark, 
and spread to Ukraine and the United States. It was a Ukrainian police 
officer, a member of the task force, who played a key part in capturing 
this criminal and shutting down this website.
    Child pornography is a global threat that requires a global 
response. We have no choice but to work together. It is not just a 
matter of preference, but of necessity.
    As these cases illustrate, identifying child predators is only part 
of the equation. We must also collect the evidence necessary to convict 
them.
    Our Regional Computer Forensics Labs (RCFLs) and our Computer 
Analysis Response Teams (CART) work with federal, state, and local 
officials to find and preserve this vital evidence.
    Last year, RCFL examiners working with the San Diego Internet 
Crimes Against Children Task Force targeted an international ring of 
child molesters, who distributed photos and videos over the Internet. 
These individuals victimized at least 45 children, including 37 
children from the United States, ranging in age from 2 to 14. Twenty-
five individuals in Europe and North America were arrested and tried 
for their involvement. Examiners spent more than 500 hours collecting 
the evidence necessary to put these men away.
    Unfortunately, such cases are all too common. In the past five 
years, RCFL and CART examiners have conducted more than 31,000 
examinations. As the number of computer crimes we investigate has 
increased, so has the need for computer forensics.
    It is always a struggle to square priorities and improve services 
with limited resources. We must find a way to balance our forensic 
needs in counterterrorism, counterintelligence, and computer intrusion 
cases with an ever-increasing need for such analysis in child 
exploitation cases.
    To meet that need, we have trained more than 16,000 law enforcement 
officers to handle digital forensic evidence.
    FBI digital evidence forensic examiners developed a special tool to 
aid investigators known as Image Scan. This tool and its training 
course is one of our most sought-after training programs by both 
domestic and international law enforcement agencies. This program 
enables investigators to identify, isolate, and store images from a 
suspect's computer on a thumb drive without altering the original 
evidence on the computer.
    We have provided Image Scan training to more than 4,600 state and 
local task force officers, enabling them to collect data necessary to 
obtain search warrants, or to detain subjects pending a more 
comprehensive analysis. This year, with the Department of Justice's 
Computer Crime and Intellectual Property Section, we will train our 
international partners in Brazil, Budapest, Estonia, Portugal and 
Canada, to name just a few.
    At the same time, the FBI is constantly evaluating, expanding and 
improving the way that it performs computer forensics and delivers the 
processed results to investigators. Each year the size of personal 
computing storage capacity increases while the overall cost drops. The 
result is that the volume of evidence confronting FBI digital evidence 
forensic examiners today has become staggering. As of the end of FY 
2007, FBI CART reports that it has processed in excess of 2.5 petabytes 
of data (that is in excess of 2.5 million gigabytes). To combat these 
trends, the FBI has deployed 25 state-of-the-art forensic networks to 
major FBI Field Offices. These networks enable FBI forensic examiners 
to more efficiently process seized digital evidence and then present 
the results to investigators for their review through their desktop 
computers.
    Despite the unprecedented growth of seized data, the FBI has 
witnessed a ten per cent reduction for the past two years in the 
backlog of child exploitation digital evidence examinations as a result 
of these network efficiencies. Based upon the proposed FY 2008 budget, 
the FBI plans to expand the forensic networks to an additional ten 
field offices while continuing to examine smaller network solutions for 
the FBI's smaller field offices and resident agencies. To enhance our 
investigative efforts, the FBI's Digital Evidence Section and Cyber 
Division have recently joined forces to stand up the first digital 
evidence forensics unit dedicated solely to the processing of Innocent 
Images evidence. The new unit, expected to be fully operational by the 
end of FY 2008, will be in Linthicum, Maryland, and will have up to ten 
full time forensic examiners. It will perform full content forensic 
examinations on priority investigations.
    By giving cyber investigators the tools they need, we are reducing 
our backlog and leaving more complex matters for the CART teams and the 
RCFLs.
    We know there is a real need for additional training, faster 
services, and better coordination, and we will continue to expand these 
efforts in the years to come.
    I want to talk for just a moment about the importance of community 
outreach and private sector partnerships.
    Part of our job--and an integral part of Project Safe Childhood--is 
to educate the public about child exploitation. The Internet has 
provided child predators with a sense of anonymity and their products a 
world-wide portability. These are not mere pictures or posed shots, but 
live acts of molestation. And as predators become desensitized, those 
who once collected images may start to create images, seeking to harm 
younger children, in more terrifying ways.
    Our cyber agents routinely meet with members of the community to 
talk about Internet safety. Parents may not understand the dangers 
lurking in cyber space, or what they are doing to put themselves and 
their children at risk. A parent may see a web cam as an easy and 
inexpensive way for a child to communicate with friends or relatives, 
but a predator sees it as an open window into a child's bedroom.
    In field offices around the country, agents are teaching parents 
how to protect against the tactics used by predators, and the risks of 
peer-to-peer file-sharing networks, instant messaging, and social 
networking sites.
    We are also working with the media to get the message out. Our 
Endangered Child Alert Program, conducted in partnership with the 
National Center for Missing & Exploited Children and Department of 
Justice's Child Exploitation and Obscenity Section, uses national and 
international media exposure to identify unknown predators and victims. 
Through publicity on the FBI website and the television show 
``America's Most Wanted,'' we have identified and arrested eight 
predators. More importantly, we have identified more than 30 child 
victims.
    In another effort, Oprah Winfrey uses her television show to alert 
viewers to known sexual predators and posts their faces and identifying 
information on her website. She is offering $100,000 out of her own 
pocket for each predator brought into custody. Within the first week, 
two fugitives were arrested. Since then, two more predators have been 
taken into custody.
    We have also enlisted the help of our private sector partners. We 
have asked Internet service providers and search engine operators to 
monitor their websites, and to alert us when they discover illegal 
content.
    We in law enforcement face another hurdle in purging predators from 
the Internet--and that hurdle is tracking both the criminal and the 
crime. Data linking criminals to their crimes is absolutely essential 
in the fight against online child exploitation. We are working with 
Internet service providers on a voluntary basis to retain records of 
online activities so that we can identify predators and their 
activities and successfully prosecute them.
    Everyone in this room is familiar with violence and injustice. 
There are few things more difficult to bear than the victimization of a 
child. These cases are horrific, heartrending, and seemingly endless in 
number.
    The FBI is committed to protecting the most vulnerable among us. We 
are committed to sweeping sexual predators off the street, off the 
Internet, and out of our children's lives.
    In closing, I want to recognize those who investigate and prosecute 
these cases. They deserve our respect, our admiration, and our 
gratitude. They have seen the darkest side of humanity. However, this 
is some of the most important work we do.
    I would like to thank the Committee for addressing this very 
important issue and for allowing me to testify. I look forward to 
answering your questions.

    Mr. Scott. Thank you, Mr. Mason. I forgot to advise people 
about the little lights before you and to confine your remarks 
to 5 minutes, but Mr. Mason, apparently you didn't need 
directions. So I thank you for your testimony.
    Mr. Mason. Yes, sir.
    Mr. Scott. Mr. Rothenberg.

TESTIMONY OF LAURENCE E. ROTHENBERG, DEPUTY ASSISTANT ATTORNEY 
     GENERAL, OFFICE OF LEGAL POLICY, DEPARTMENT OF JUSTICE

    Mr. Rothenberg. Thank you, Mr. Chairman, Ranking Member 
Forbes, and the other Members of the Committee. Thank you for 
inviting me to represent the Department of Justice at this 
important hearing, and to describe our current proposals for 
enhancing our ability to investigate and to prosecute predators 
who sexually exploit children, especially through the Internet.
    The fight against child exploitation is a priority for the 
Department as exemplified by our work in Project Safe 
Childhood, a nationally coordinated investigative and 
prosecutorial initiative linking U.S. Attorneys offices across 
the country with Federal, State, and local law enforcement, and 
with organizations like the National Center for Missing and 
Exploited Children. The Department appreciates Congress' strong 
support for these efforts, and the work that you have done 
recently. Most notably, the passage of the Adam Walsh Child 
Protection and Safety Act of 2006 has already made a 
difference.
    I ask that my full written statement be included in the 
record, and I will just summarize our principal proposals.
    Three of these proposals are contained in the Violent Crime 
and Antiterrorism Act announced by former Attorney General 
Gonzales this past May, and we also have several new proposals 
to facilitate prosecution of fugitive sex offenders. A number 
of these proposals will be familiar to you from Congressman 
Musgrave's testimony earlier today, and I will provide the 
Department's perspective on them.
    First, we urge that Congress establish a mandatory minimum 
sentence for possession of child pornography. This is crucial 
because too many people believe that child pornography is just 
pictures and not a big deal. That is wrong, Mr. Chairman. Each 
child pornography image is a visual record of the sexual 
exploitation of a child. It is not just a picture. And every 
time it is viewed the child is violated again. Furthermore, it 
is the demand for such images that fuels the physical violation 
of the child in the first place.
    Unfortunately, since the Federal Sentencing Guidelines 
became advisory, the number of downward departures by judges in 
child pornography possession cases has leapt to 26.3 percent, 
more than twice the average rate of such departures. 
Establishing a two-year minimum sentence will be a warning to 
potential consumers of child pornography, prevent unwarranted 
downward departures, and forcefully express our society's 
revulsion at this type of material.
    Our second proposal would amend the current law providing 
that an Internet service provider who knowingly and willfully 
fails to report the presence of child pornography images on its 
computer services is subject to a criminal fine. This provision 
has been virtually impossible to enforce. Our legislation would 
therefore add a civil penalty that would be easier to enforce 
for negligent failure to report such images. Those images are 
out there, they are on somebody's computer server, and law 
enforcement needs to know about them to investigate and 
prosecute the crimes.
    Our third proposal fills a gap in existing law that has led 
some courts to overturn convictions of possessors of child 
pornography. Some courts have narrowly interpreted, incorrectly 
in our view, the definition of the term ``possession'' in the 
Federal Criminal Code so that a person who, for example, viewed 
images of child pornography on his computer but did not save 
them onto his disk drive would not have violated the statute. 
Our proposal would amend the statute explicitly to cover, 
quote, knowingly accessing child pornography with the intent to 
view it, close quote.
    Our final set of proposals relates to 18 U.S.C. Section 
2250, created in the Sex Offender Registration and Notification 
Act, SORNA, part of the Adam Walsh Act. Section 2250 creates 
the Federal felony offense of failure to register as a sex 
offender or to update a registration. By terms of the statute, 
it applies to a person who travels in interstate or foreign 
commerce. Since the law has been enacted, one Federal district 
court has found that the statute's use of the present tense 
``travels'' means that the law only applies when the interstate 
or foreign travel occurred after the statute enactment. In 
order to clarify that this jurisdictional requirement is 
satisfied, regardless of whether the travel occurred before or 
after the enactment of the Adam Walsh Act, it should be amended 
to add ``has traveled.''
    Additionally, our proposal will clarify that section 2250 
offenses are continuing offenses as long as an offender's 
failure to register or update a registration exists. This 
clarification would eliminate the possibility of a claim by an 
offender that section 2250 was an ex post facto law.
    Finally, as an enhancement of the current law, we propose 
to include section 2250 among the child abduction and felony 
sex offenses that can be prosecuted at any time without 
limitation.
    Thank you for giving me the opportunity to discuss our 
proposals, and I am happy to answer your questions.
    [The prepared statement of Mr. Rothenberg follows:]

              Prepared Statement of Laurence E. Rothenberg

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you. Mr. Waters.

  TESTIMONY OF FLINT WATERS, WYOMING INTERNET CRIMES AGAINST 
                      CHILDREN TASK FORCE

    Mr. Waters. Thank you, Mr. Chairman, Ranking Member Forbes, 
and Members of the Committee. I want to thank you for the 
opportunity to speak on this matter. I am Flint Waters, Special 
Agent with the Wyoming Division of Criminal Investigation.
    I am not here to testify on behalf of the entire Internet 
Crimes Against Children network. There are others that can do 
that. I am here to speak from my work on the front lines 
investigating these cases and building the ICAC data network. 
Let me share with you some of the material we see every day.
    Imagine the movie of the 4-year-old girl being sodomized on 
a bed, as her attacker tries to force her to comply with his 
wishes. And from the speakers you can hear her screams of no, 
no, no. This child is trying to free herself unsuccessfully 
from this attacker. We have got movies, the movie of the 
toddler on a changing table. The video zooms in as her diaper 
is removed, and an unknown adult male penetrates the child. 
From the video it is obvious that this is frequent activity for 
this little girl. In many of these videos, the offender films 
as they sneak into a child's bedroom with the lights from their 
camera. We can only imagine that the child's mother must be 
asleep, unaware, somewhere else in the house.
    In a recent case, an offender filmed himself drugging the 
juice boxes of neighborhood children before tricking them into 
drinking the mix. He then filmed himself as he sexually abused 
unconscious children. Through the interdiction of his trading 
in child pornography, investigators found numerous local 
victims.
    When you do this sort of work there is certain pictures you 
just can't get out of your mind. For me, one is the picture of 
a young girl about six or seven. She is nude, she is strapped 
to a chair, and the chair has fallen over, and this child is 
being sexually assaulted by a dog. The tears are streaming up 
this little girl's face. And to my knowledge, she has not been 
identified.
    In one case investigated out of Wyoming, an offender was so 
fixated on manufacturing these child sexual abuse images, they 
arranged to abduct two girls, one on the East Coast and one in 
Wyoming. When he came to Wyoming, he was arrested. During his 
interview after his arrest he talked about plans to make his 
fortune selling child pornography. When asked about his 
intentions with the Wyoming girl, he said he was going to use 
her to make movies, and then sell her or leave in the mountains 
to, quote, be eaten by a bear or a lion. She wouldn't survive.
    Recently, our investigators have been using systems to find 
individuals trafficking using peer-to-peer file sharing, 
searching for sadistic images where the victims are especially 
young, and they are reported online trading these images at 
that moment. In one day we found 4,500 unique locations 
throughout the United States. That is October 4th, 2007. During 
the month of August, 2007, that is where we found individuals 
trading--these are distributors of child pornography--around 
the United States. We have been tracking this for 36 months. 
The magnitude of this problem, our lowest estimate is that 
there are over 350,000 individuals trading these images 
depicting rape and sexual abuse of children in the United 
States alone. That is 350,000 unique serial numbers. Of that, 
we can clearly calculate well over half a million people in the 
United States that we can track.
    The good news is we know how to find these predators. They 
are just a subpoena away from arrest and prosecution. In a 
recent case in the western United States, through our 
operations an offender was found to be trading child sexual 
abuse images on the peer-to-peer networks. When he was 
identified, law enforcement found that he was a respiratory 
therapist at a children's hospital. He admitted targeting the 
weak, the unconscious, children that were there on hospice 
care. When asked how many children he had victimized, he looked 
out at the falling snow and asked how many snowflakes are 
there.
    Chairman Conyers, Members of the Committee, the bad news is 
that while my task force and the ICAC network can tell you how 
to interdict tens of thousands of sexual predators tomorrow, 
the vast majority of these leads will never be investigated. In 
fact, less than 2 percent of these crimes we know about are 
investigated due to the sheer lack of resources. Most of these 
victims will not be rescued.
    I am here today to testify about what many of my law 
enforcement colleagues are not free to come here and tell you. 
We are overwhelmed, we are underfunded, and we are drowning in 
the tidal wave of tragedy. We don't have the resources we need 
to save these children. Law enforcement's efforts, to include 
the ICAC program, the FBI's Innocent Images National 
Initiative, ICE's Cyber Crimes Center, and U.S. Postal 
Inspection Service are all desperately underfunded. From where 
I stand, these are human rights workers who need and deserve 
our support. The price we pay for coming up short will be 
measured in children lost.
    There are times in our line of work when you find yourself 
staring into the eyes of the children in these movies and 
apologizing. We apologize because we can't find them. We can't 
rescue them. There is just not enough people or resources to 
help.
    On behalf those victims, I thank you for doing everything 
in your power to help us fight this human rights crisis.
    [The prepared statement of Mr. Waters follows:]

                   Prepared Statement of Flint Waters

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you. Ms. Collins?

   TESTIMONY OF MICHELLE COLLINS, DIRECTOR, EXPLOITED CHILD 
  DIVISION, NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN

    Ms. Collins. Thank you, Mr. Chairman, and the distinguished 
Members of Committee. As the Director of the Exploited Child 
Division at the National Center for Missing and Exploited 
Children, I welcome this opportunity to appear before you to 
discuss crimes against children on the Internet.
    The National Center joins you in your concern for the 
safety of the most vulnerable members of our society, and 
thanks you for bringing attention to this serious problem 
facing America's communities. The National Center is a not-for-
profit corporation mandated by Congress and working in 
partnership with the Department of Justice as the national 
resource center and clearinghouse on missing and exploited 
children.
    One of our programs is the CyberTipline. It acts as the 911 
of the Internet. It serves as the national clearinghouse for 
investigative leads and tips regarding crimes against children 
on the Internet. Congress mandated that the National Center 
establish and operate the CyberTipline in its Justice 
Department appropriations legislation for fiscal year 1998.
    The CyberTipline operates in partnership with the FBI, with 
ICE, with the U.S. Postal Inspection Service, with the U.S. 
Secret Service, the Department of Justice's Child Exploitation 
and Obscenity Section, the nationwide Internet Crimes Against 
Children Task Forces, as well as all State and local law 
enforcement agencies here in the United States.
    Since the CyberTipline began operation, the National Center 
has received and processed more than 525,000 reports regarding 
child sexual exploitation, resulting in hundreds of arrests and 
prosecutions. These leads come from both the public as well as 
electronic service providers, which we call ESPs. They are 
mandated to report to the CyberTipline any images of apparent 
child pornography under section 13032 of Title 18 of the U.S. 
Code. Reports are prioritized, processed, and then submitted to 
the appropriate law enforcement agency by our analysts.
    The FBI, ICE, and the Postal Inspection Service have real-
time access to the leads, and all three agencies assign agents 
and analysts to our building. Rapid dissemination of 
CyberTipline reports is accomplished using Virtual Private 
Network connections. ESPs, the electronic service providers 
that are registered with the CyberTipline, use a secure Web 
site to upload images of apparent child pornography directly 
onto our server, which we then encrypt. The VPN is also used to 
transmit these images and the CyberTipline reports to the 
National ICAC task forces, which also have secure, encrypted 
connections into the CyberTipline. The majority of the 
CyberTipline leads are referred to the 46 federally-funded ICAC 
task force agencies, one of the most effective initiatives in 
the fight against online child sexual victimization.
    It was Congress in 1997 that conceived the idea of creating 
specialized units to investigate these types of crimes. In the 
10 years since then, the national ICAC program has become a 
model of successful Federal oversight of State and local 
programs, which though geographically diverse, are united by 
national standards with investigative policies and procedures. 
The national ICAC program complements the Federal agencies 
efforts as they work seamlessly in the fight against online 
victimization.
    The typical analysis of a report that we would receive from 
an electronic service provider begins with taking in whatever 
information that company provides to us, and then we try match 
it to other online activity. Conducting online searches is one 
method we use to try to connect a real person to their online 
identity. We use both publicly available search tools, as well 
as commercial search tools that are often given to the National 
Center at no cost.
    These searches often turn up information valuable to law 
enforcement, including whether or not the offender has 
legitimate access to a child, such as a school bus driver. Law 
enforcement will want to move quickly in cases where a child 
could be in imminent danger. Using the information we gather 
from the CyberTipline, law enforcement serves legal process, 
gathers evidence, and obtains probable cause to arrest of the 
perpetrator.
    In our experience, the child victims would have never told 
anyone about their abuse. Their perpetrator would have remained 
anonymous but for the CyberTipline, and despite what should 
have been the obvious clues to the true nature of the offender.
    Who are the children that we see in these images every day? 
Of the identified offenders in a one-year period 83 percent of 
them had images of children being sexually abused under the age 
of 12, 39 percent had images of children under the age of 6, 
while 19 percent of the offenders had images of children being 
sexually abused under the age of 3 years old.
    Because of our role as a clearinghouse for online crimes 
against children and the reputation we have earned while 
assisting law enforcement, our analysts have seen more child 
pornography than any law enforcement agency in the world. This 
benefits our Child Victim Identification Program, a joint 
project with our Federal law enforcement partners and the ICAC 
task forces to identify children who are being actively abused, 
as well as assist with prosecution of these cases.
    At this point we know of at least 1,200 child victims who 
have been rescued. And thankfully, I can report to you that the 
child that you are viewing here has been rescued by law 
enforcement.
    Today we are working with leaders in the Internet industry 
to explore improvements, new approaches, and better ways to 
attack the problem. NCMEC urges the Committee to take a serious 
look at the dangers threatening our children, moving decisively 
to provide law enforcement with the tools that they need to 
identify and prosecute those who victimize our children.
    Thank you very much.
    [The prepared statement of Ms. Collins follows:]

                 Prepared Statement of Michelle Collins

    Mr. Chairman and distinguished members of the Committee, as the 
Director of the Exploited Child Division of the National Center for 
Missing & Exploited Children (NCMEC), I welcome this opportunity to 
appear before you to discuss crimes against children on the Internet. 
NCMEC joins you in your concern for the safety of the most vulnerable 
members of our society and thanks you for bringing attention to this 
serious problem facing America's communities.
    Let me first provide you with some background information. NCMEC is 
a not-for-profit corporation, mandated by Congress and working in 
partnership with the U.S. Department of Justice as the national 
resource center and clearinghouse on missing and exploited children. 
NCMEC is a true public-private partnership, funded in part by Congress 
and in part by the private sector. Our federal funding supports 
specific operational functions mandated by Congress under Section 5773 
of Title 42 of the United States Code, which is attached.
    These include a national 24-hour toll-free hotline; a distribution 
system for missing-child photos; a system of case management and 
technical assistance to law enforcement and families; training programs 
for federal, state and local law enforcement; and programs designed to 
help stop the sexual exploitation of children.
    One of our programs is the CyberTipline, the ``9-1-1 for the 
Internet,'' which serves as the national clearinghouse for 
investigative leads and tips regarding crimes against children on the 
Internet. Congress mandated that NCMEC establish and operate the 
CyberTipline in its Justice Department appropriations legislation for 
fiscal year 1998, which is attached. The CyberTipline is operated in 
partnership with the Federal Bureau of Investigation (``FBI''), the 
Department of Homeland Security's Bureau of Immigration and Customs 
Enforcement (``ICE''), the U.S. Postal Inspection Service, the U.S. 
Secret Service, the U.S. Department of Justice's Child Exploitation and 
Obscenity Section, the national Internet Crimes Against Children Task 
Force (ICAC) program, and state and local law enforcement.
    Leads are received in seven categories of crimes:

        <bullet>  possession, manufacture and distribution of child 
        pornography;

        <bullet>  online enticement of children for sexual acts;

        <bullet>  child prostitution;

        <bullet>  child-sex tourism;

        <bullet>  child sexual molestation (not in the family);

        <bullet>  unsolicited obscene material sent to a child; and

        <bullet>  misleading domain names.

    Since the CyberTipline began operation, NCMEC has received and 
processed more than 525,000 leads, resulting in hundreds of arrests and 
successful prosecutions. These leads come from both the public and 
electronic service providers (ESP), which are mandated to report under 
Section 13032 of Title 18 of the United States Code.
    Reports are prioritized, processed and submitted to the appropriate 
law enforcement agency. The FBI, ICE and Postal Inspection Service have 
``real time'' access to the leads, and all three agencies assign agents 
and analysts to work on-site at NCMEC and review the reports. We are 
not authorized to send CyberTipline reports to foreign law enforcement 
agencies. This is a real problem, considering the global nature of the 
Internet.
    Rapid dissemination of CyberTipline reports is accomplished through 
the use of Virtual Private Network (VPN) connections. ESPs that are 
registered with the CyberTipline use a VPN to upload images of apparent 
child pornography directly into our server. These images are encrypted 
for additional security. The VPN is also used to transmit images and 
CyberTipline reports to the national ICAC program, which also has a 
secure, encrypted connection to the NCMEC system.
    The majority of CyberTipline leads are referred to the 46 federally 
funded ICAC taskforce agencies, one of the most effective initiatives 
in the fight against online child victimization. It was Congress that, 
in 1997, conceived the idea of creating specialized units to 
investigate these crimes. In the 10 years since then, the national ICAC 
program has become a model of successful federal oversight of state and 
local programs which, though geographically diverse, are united by 
national standards of investigative policies and procedures. The 
national ICAC program complements the federal agencies' efforts, as 
they work seamlessly in the fight against online child victimization.
    A typical analysis of an ESP report begins by taking whatever 
information is in the report and trying to match it to other online 
activity. Conducting online searches is one method we use to try to 
connect a real person to the online criminal conduct. We use both 
publicly-available search tools as well as commercial search tools that 
are given to us at no cost by our corporate partners.
    Because Congress intended the CyberTipline to augment rather than 
replace established law enforcement procedures, the information we 
provide is only the first step in the process. Our searches turn up 
information that is valuable to law enforcement, including whether the 
perpetrator has legitimate access to children--such as a school bus 
driver. Law enforcement will want to move quickly in cases where 
children could be in imminent danger. Using the information we gather, 
law enforcement serves legal process, gathers evidence, and obtains 
probable cause to arrest the perpetrator.
    An obstacle to this process is that not all ESPs are reporting and 
those that do report are not sending uniform types of information, 
rendering some reports useless. Some ESPs take the position that the 
statute is not a clear mandate and that it exposes them to possible 
criminal prosecution for distributing child pornography themselves. In 
addition, because there are no guidelines for the contents of these 
reports, some ESPs do not send customer information that would allow 
NCMEC to identify a law enforcement jurisdiction. As a result, 
potentially valuable investigative leads are left to sit in the 
CyberTipline database with no action taken.
    There is also another necessary yet missing link in the chain from 
detection of child pornography to conviction of the distributor. Once 
the CyberTipline analysts give law enforcement all the information they 
need about specific images traded on the Internet, there can be no 
prosecution until the date and time of that online activity is 
connected to an actual person. There is currently no requirement for 
ESPs to retain connectivity logs for their customers on an ongoing 
basis. Some have policies on retention but these vary, are not 
implemented consistently, and are for too short a time to have 
meaningful prosecutorial value. One example: law enforcement discovered 
a movie depicting the rape of a toddler that was traded online. In 
hopes that they could find the child by finding the producer of the 
movie, they moved quickly to identify the ESP and subpoenaed the name 
and address of the customer who had used that particular IP address at 
the specific date and time. The ESP was not able to provide the 
connectivity information. To this day, we have no idea who or where 
that child is--but we suspect she is still living with her abuser.
    In the cases we have seen, the child victims would have never told 
anyone about their abuse, and their perpetrators would have remained 
anonymous but for the CyberTipline and vigorous law enforcement 
investigation.
    Who are the children in the images we see every day? Of the 
identified offenders in a one-year period, 83% had images of children 
younger than 12 years old, 39% had images of children younger than 6 
years old, and 19% had images of children younger than 3 years old.
    Because of our role as a clearinghouse for online crimes against 
children, and the reputation we've earned for assistance to law 
enforcement, our analysts see more child pornography than any law 
enforcement agency in the world. This benefits our Child Victim 
Identification Program, a joint project with our federal law 
enforcement partners and the national ICAC task force program, whose 
mission is two-fold: (1) to help prosecutors get convictions by proving 
that a real child is depicted in child pornography images; and (2) to 
rescue the children. To date we have records relating to almost 1200 
identified child victims.
    The Internet has become a primary tool to victimize children today, 
due to its widespread use and the relative anonymity that it offers 
child predators. The CyberTipline is a tool used by law enforcement to 
apprehend those who use the Internet to victimize children.
    Today, NCMEC is working with leaders in the Internet industry in 
order to explore improvements, new approaches and better ways to attack 
the problems. We are also bringing together key business, law 
enforcement, child advocacy, governmental and other interests and 
leaders to explore ways to more effectively address these new issues 
and challenges.
    NCMEC urges the Committee to take a serious look at the dangers 
threatening our children today, and to move decisively to provide law 
enforcement with the tools they need to identify and prosecute those 
who target our children.
    Now is the time to act.
    Thank you.

    Mr. Scott. Thank you. Mr. Weeks?

            TESTIMONY OF GRIER WEEKS, PROTECT, INC.

    Mr. Weeks. Chairman Scott, Ranking Member Forbes, and 
distinguished Members, thank you for having us. I am Grier 
Weeks, Executive Director of the National Association to 
Protect Children. We are a grassroots organization that is 
active in the States and now in Washington on this Federal 
issue.
    I am going to depart from my remarks. Just to be brief 
here, I am going to focus on the one thing that this Congress 
is consistently not hearing year after year at these hearings, 
and that is a frank assessment of the state of readiness of law 
enforcement at the Federal, State, and local level. Let me 
begin by reviewing what we know about the magnitude of this 
crisis.
    First, we know that there are hundreds of thousands of 
individuals within the U.S. Right now actively engaged in these 
crimes, hundreds of thousands. The Department of Justice has 
testified before Congress to this. And as you have heard from 
Agent Waters, this is a matter of fact.
    Second, we know that these individuals are responsible for 
hundreds of thousands of child victims in the United States. 
Everything we know about the rate of victimization, the number 
of victims tells us that if there are a half a million people 
out there trafficking in child pornography, that you are 
talking about hundreds of thousands of child victims.
    Third, we know that these hundreds of thousands of 
perpetrators are committing millions of crimes. That is 
important, because the volume of crimes is the best indicator 
we have of what is essentially a market demand, a crushing 
market demand for more and more product, which can only be 
provided by the rape and torture of more children.
    The most important thing, perhaps, that we know is we can 
prevent this. This is entirely unnecessary. Because of the 
innovative law enforcement techniques that Agent Waters has 
talked about, the FBI is engaged in, we know where these guys 
are. And there is no reason in the world why these children 
should continue to suffer because we won't get up and go get 
them.
    Only a token of these cases, as you have heard today, are 
ever investigated. According to the FBI, in the 6\1/2\-year 
period between fiscal year 2001 and mid-2007, the number of 
suspects identified and arrested by the FBI for online child 
exploitation crimes was 5,048. The ICAC program, comprised of 
46 task forces nationwide, reports just over 2,000 arrests in 
fiscal year 2006. We don't have reliable numbers on ICE and 
Postal, but they would be considerably smaller.
    All of this, though, is no fault of these heroes that are 
out there on the front lines doing this work. And I want to 
emphasize that clearly. As of July 11th, the FBI's Innocent 
Images National Initiative, based in Calverton, had just 32 
staff, including 13 agents. Now, in previous congressional 
testimony, the FBI and Department of Justice have emphasized 
essentially the full-time equivalents, but I think it is 
important that this Committee understands the very inadequate, 
grossly inadequate size of this unit itself.
    The Innocent Images congressional appropriation last year 
was $10 million. That is less than half of what HUD gave to 
Jersey City, New Jersey, for housing and community development. 
In fiscal year 2006, the budget for the entire ICAC task force 
program, which is a tremendous success, was 14\1/2\ million. 
After years of administration neglect and mounting 
congressional scrutiny, the Department of Justice has finally 
increased that by $11 million, but we are talking about a 
quarter of one bridge in Alaska, the Bridge to Nowhere.
    Law enforcement also suffers from a critical lack of 
forensic resources at every level. In your States and at the 
Federal level we hear again and again people waiting 8 months 
to get a hard drive analyzed. How is this possible? How in a 
country where you can't go a single night without hearing about 
sex offenders, you have got TV shows about sex offenders, how 
is it possible that we can have a flourishing criminal 
marketplace in children that goes on with impunity?
    Let me take a stab at that, and I will conclude with our 
insight into why this has been allowed to happen. In 1996, the 
World Wide Web really took off. That was the year that the 
public became aware of it and started to use the World Wide 
Web. That was also the year that Megan's Law was passed, which 
is a good piece of legislation. But I want to point out that 
Megan's Law, which imposed a form of citizen supervision on 
released sex offenders, became essentially the whole paradigm 
for how this country thinks about child sexual abuse. It became 
the way we talked about it, the way we legislated about it, and 
it was popular because it was cheap, it was irresistible to the 
media, and it was popular.
    As that decade wore on and we talked consistently about 
registered sex offenders, child pornography exploded. Children 
became a commodity in an underground economy, and law 
enforcement continued to fall farther and farther behind. Law 
enforcement was not given the personnel, the equipment, the 
training, the forensic labs, or any of the other support they 
needed to go find these kids and rescue them. Year after year 
we heard unbelievable rhetoric. The Administration talked 
tough, but refused to support law enforcement. Year after year 
they refused to even shoot straight with Congress about what 
the resources really were and what they needed.
    It got so bad that finally last year Congressman Joe Barton 
from Texas practically begged the Department of Justice to tell 
them what they needed from Congress. It was apparently useless. 
By the end of the Megan's law decade, America ended up with an 
enormous surplus of rhetoric about sex offenders and a severe 
deficit of resources to do anything about them. We were 
spending millions hunting for sex offenders who failed to 
register their addresses, while ignoring legions of new sexual 
predators whose locations we do know. We were doing the things 
that cost the least and sound the toughest, while neglecting 
the things that cost real money and could save the most lives.
    Now the 110th Congress has the opportunity to do what the 
109th Congress and this Administration did not: Fight back, pay 
what it costs, disrupt this market, and go get these children. 
You have the opportunity to show America and 50 State 
legislatures a little less talk and a lot more action. You can 
launch the toughest offensive against child sexual predators 
this Nation has ever seen.
    It will also be the largest child abuse prevention campaign 
in history, and I will just add that millions of American 
taxpayers from all walks of life will be behind you 100 
percent.
    Thank you.
    [The prepared statement of Mr. Weeks follows:]

                   Prepared Statement of Grier Weeks

    Chairman Conyers, Ranking member Smith, distinguished members, 
thank you for the opportunity to testify today. I am Grier Weeks, 
executive director of the National Association to Protect Children, or 
PROTECT. PROTECT was established in 2002 as a grassroots membership 
association that works to promote legislation with one exclusive aim: 
child protection. We work primarily in state legislatures to win 
stronger laws for child protection, and last year helped secure greater 
funding for law enforcement to combat child exploitation in California, 
Tennessee and North Carolina. For the past two years, we have done 
extensive research into the magnitude of the problem nationally and 
what law enforcement at all levels of government needs to combat this 
crisis.
    You are hearing today from some of the foremost experts on child 
exploitation in the United States. When it comes to data on the nature, 
scale and magnitude of child pornography trafficking, there is not even 
a close second to ICAC Agent Flint Waters. In the FBI's Arnold Bell, 
you have a seasoned veteran who has spent years at the very center of 
national and international anti-child exploitation law enforcement 
efforts.
    I will confine my testimony, therefore, to the one set of facts 
that Congress urgently needs but has not been given during previous 
legislative hearings on this subject: a frank assessment of the state 
of readiness of our federal, state and local law enforcement agencies 
to combat this epidemic.

            HUNDREDS OF THOUSANDS OF PREDATORS ARE AT LARGE

    Let me begin by reviewing what we know about the magnitude of this 
crisis. First, we know that there are hundreds of thousands of 
individuals within the United States who are actively engaged in child 
pornography crimes. Assistant Attorney General Alice S. Fisher gave 
this testimony to the House Energy and Commerce Committee in 2006.\1\ 
Agent Flint Waters, the primary architect of the Internet Crimes 
Against Children (ICAC) information-sharing network and the one person 
who has compiled the most data on trafficking, estimates there are at 
least 350,000 such criminal offenders within the U.S.\2\
---------------------------------------------------------------------------
    \1\ Testimony of Alice S. Fisher, U.S. House Energy and Commerce 
Committee, May 3, 2006
    \2\ Correspondence between Flint Waters, Wyoming Division of 
Criminal Investigation and PROTECT
---------------------------------------------------------------------------
                 HUNDREDS OF THOUSANDS OF CHILD VICTIMS

    Second, we also know these individuals are responsible for hundreds 
of thousands of child victims, whether of child pornography production 
or other forms of direct sexual assault. FBI Cyber Crimes Division 
Chief Raul Roldan gave this testimony to Congress in 2006.\3\ Both 
research and anecdotal evidence tell us that a majority of those 
arrested for so-called ``simple possession'' of child pornography are 
known to have sexually assaulted children or attempted to.\4\ Most of 
these children are preyed upon not by strangers, but by adults in their 
own daily circle of trust. Child pornography in the U.S. is largely a 
home-grown, cottage industry.
---------------------------------------------------------------------------
    \3\ Testimony of Raul Roldan, U.S. House Energy and Commerce 
Committee, May 3, 2006
    \4\ ``Child Pornography Possessor Arrested in Internet-Related 
Crimes: Findings from the National Juvenile Online Victimization 
Survey, University of New Hampshire Crimes Against Children Research 
Center / National Center for Missing and Exploited Children, 2005; 
Testimony of Andres Hernandez, U.S. House Energy and Commerce 
Committee, September 26, 2006
---------------------------------------------------------------------------
           MILLIONS OF CRIMES, A MULTI-BILLION DOLLAR MARKET

    The third important fact we know is that these hundreds of 
thousands of individuals commit millions of crimes each year.\5\ This 
distinction between offenders and crimes is not an academic one, 
because the volume of crimes being committed is our best indicator of 
the crushing market demand for new ``product.'' This is a market 
estimated to range in the billions of dollars annually,\6\ although it 
also thrives on barter. This demand drives the rape and torture of more 
American children every day.
---------------------------------------------------------------------------
    \5\ Testimony of Flint Waters, U.S. House Energy and Commerce 
Committee, April 6, 2006
    \6\ National Center for Missing and Exploited Children estimate
---------------------------------------------------------------------------
                          WE CAN PREVENT THIS

    Finally, perhaps the most important thing we know is that we can 
prevent this. Thanks to the innovative high tech investigations of the 
ICACs and federal agencies, law enforcement can now locate tens of 
thousands of the predators referred to by Ms. Fisher, Mr. Roldan and 
Agent Waters. In one recent 30-day period, the ICAC Data Network 
gathered evidence on individuals trafficking in child pornography from 
nearly 50,000 unique locations.\7\ These criminals are now caught in a 
web of their own making.
---------------------------------------------------------------------------
    \7\ Information provided to Sen. Joseph Biden by ICAC Data Network, 
October, 2007
---------------------------------------------------------------------------
                  ONLY A TOKEN PERCENTAGE INTERDICTED

    If there were hundreds of thousands of active bank robbers at large 
in the United States, we might declare a national state of emergency. 
But these are just children. Only token number of these crimes will 
ever be investigated. Law enforcement agencies at the federal, state 
and local level are overwhelmed and are triaging.\8\
---------------------------------------------------------------------------
    \8\ A law enforcement panel testifying before the U.S. House Energy 
and Commerce committee on April 6, 2006 discussed the triaging of child 
exploitation cases.
---------------------------------------------------------------------------
    According to the Federal Bureau of Investigation, in the six and a 
half year period between FY 2001 and mid-2007, ``the number of suspects 
identified and arrested by the FBI for online child exploitation'' 
crimes was 5,048.\9\ The ICAC program, comprised of 46 task forces 
nationwide, reports just over 2,000 arrests nationwide in FY '06.\10\ 
We do not know of reliable numbers from Immigration and Customs 
Enforcement or the U.S. Postal Inspection Service, but they would be 
smaller than either the FBI's or the ICAC networks.
---------------------------------------------------------------------------
    \9\ FBI letter to Sen. Joseph Biden, July 11, 2007
    \10\ Office of Juvenile Justice and Delinquency Prevention, U.S. 
Department of Justice
---------------------------------------------------------------------------
              LAW ENFORCEMENT AGENCIES STARVED FOR FUNDING

    All of this is no fault of the heroes who work at the FBI, ICE, 
U.S. Postal Inspection Service and the ICAC Network.
    As of July 11th, the FBI's Innocent Images National Initiative, 
based in Calverton, Maryland, had just 32 staff, including 13 agents. 
Previous Congressional testimony by the Bureau has emphasized the total 
number of full-time equivalents assigned to child exploitation cases 
agency-wide, which is around 260.\11\ But it is important that Congress 
understands the grossly inadequate size of this unit itself.
---------------------------------------------------------------------------
    \11\ FBI letter to Sen. Joseph Biden, July 11, 2007
---------------------------------------------------------------------------
    The Innocent Images Congressional appropriation in FY '06 was $10 
million. That's less than the U.S. Department of Housing and Urban 
Development gave to Jersey City, New Jersey last year for housing and 
community development.\12\ The FBI supplemented this with approximately 
$23 million in discretionary funds.
---------------------------------------------------------------------------
    \12\ ``HUD Announces $12.7 Million for Affordable Housing and 
Community Development in Jersey City, U.S. Department of Housing and 
Urban Development news release April 20, 2006
---------------------------------------------------------------------------
    In FY '06, the budget for the entire Internet Crimes Against 
Children task force program, which has been tremendously successful, 
was $14.5 million.\13\ After years of administration neglect and 
mounting Congressional scrutiny, the Department of Justice finally 
doubled funding for this program in 2007. However, funding for this 
bridge to safety for children is still less than one-fourth the federal 
investment in Alaska's infamous ``Bridge to Nowhere'' (Gravina Island 
project).\14\
---------------------------------------------------------------------------
    \13\ ``2007 Budget Highlights,'' U.S. Department of Justice
    \14\ Despite much controversy over this project in Washington, 
progress continues using federal funding. See the Gravina Access 
Project website at http://dot.alaska.gov/gravina/
---------------------------------------------------------------------------
    Law enforcement also suffers from a critical lack of computer 
forensic resources. No FBI lab is dedicated to crimes against children, 
and agents at all levels of government report typical wait times for 
forensic work of around 8 months. This bottleneck not only limits 
prosecution, but it often leaves victims in danger while authorities 
wait for evidence.

               TIME FOR A CHANGE OF POLICY IN WASHINGTON

    How is any of this possible? How--in a nation where not a single 
night goes by without a television show or newscast on the topic of 
``sex offenders''--can a flourishing criminal marketplace prey on 
American children with such impunity? I will conclude by offering our 
insight into this question.
    It was just 1996, eleven years ago, that the world wide web took 
off, facilitating what would become a vast new online marketplace for 
child exploitation. Nineteen ninety-six was also the same year that 
Megan's Law was enacted, facilitating a decade of public awareness 
about child sexual abuse.
    Megan's Law--which imposed a form of citizen supervision on 
released sex offenders--was enormously popular, far cheaper than 
intensive surveillance and control by parole or probation officers, and 
irresistible to the news media. It quickly became a virtual paradigm 
for how America would think about, talk about and legislate about child 
sexual abuse. And although ``registration'' was a surprisingly weak 
response to the problem, it was the wellspring for a decade-long flood 
of often-partisan ``get tough'' rhetoric.
    Meanwhile, as the decade wore on, child pornography trafficking 
exploded exponentially. Children became a commodity in a new 
underground economy, and law enforcement began to fall farther behind. 
Those on the front lines were not given the basic personnel, equipment, 
training, forensic labs or other support they needed to protect 
American children.
    Year after year, the administration talked tough, but refused to 
support law enforcement, even in the face of an unfolding domestic 
human rights catastrophe. Year after year, the administration failed to 
even shoot straight with Congress about the magnitude of the problem 
law enforcement was seeing and to ask for meaningful budget increases. 
Finally, in 2006, Rep. Joe Barton practically begged the Department of 
Justice in a public hearing to ask Congress for more help combating 
child exploitation, to no avail.\15\
---------------------------------------------------------------------------
    \15\ U.S. Energy and Commerce Committee hearing, May 3, 2006
---------------------------------------------------------------------------
    By the end of the Megan's Law decade, America ended up with an 
enormous surplus of rhetoric about sex offenders and a severe deficit 
of resources to do anything about them. We were spending millions 
hunting for ex-offenders who failed to register their addresses, while 
ignoring legions of new sexual predators whose locations we know. We 
were doing the things that cost the least and sound the toughest, while 
neglecting the things that cost real money and could save the most 
lives.
    Now, the 110th Congress has the opportunity to do what the 109th, 
and this administration, did not: Fight back. Pay what it costs. 
Disrupt this market. Go get these children.
    You have the opportunity to show how America, and 50 state 
legislatures, a little less talk and a lot more action. You can launch 
the toughest offensive against child sexual predators this nation has 
ever seen, as well as the largest child abuse prevention campaign in 
history. Millions of American taxpayers from all walks of life will be 
behind you 100 percent.

    Mr. Scott. Thank you, Mr. Weeks. Mr. Ryan?

          TESTIMONY OF JOHN RYAN, GENERAL COUNSEL, AOL

    Mr. Ryan. AOL thanks Chairman Scott, Ranking Member Forbes, 
and the distinguished Members of this Committee for the 
opportunity to appear before you today to discuss the issue of 
online child protection. AOL strongly supports the efforts of 
this Committee, and shares the goal of protecting children's 
experience online and safeguarding online users from predators.
    My name is John Ryan, Chief Counsel at AOL, where I oversee 
our efforts to assist law enforcement and keep criminal 
activity off our networks. Prior to joining AOL, I was a 
prosecutor in New York, where I investigated and prosecuted 
numerous high-tech crimes, including crimes against children. I 
am a founding member of the Electronic Crimes Task Force in New 
York, which has been used as a model for cooperation between 
law enforcement and industry in the prosecution of electronic 
crimes.
    The story that I believe needs to be told today is the 
extraordinary work that we and other online companies have done 
to protect children online. Those include technology solutions 
that provide children with safe areas and provide parents with 
tools to guard and monitor their children's activities, provide 
law enforcement with tools and assistance needed to investigate 
and prosecute Internet-related crimes, our educational efforts 
to empower parents and children, and our ongoing work with 
others in the Internet community to develop best practices and 
solutions. For AOL these efforts make good business sense but, 
more importantly, are the right thing to do.
    A decade ago, AOL pioneered the concept of parental 
controls, to give parents powerful tools to enable them to set 
and enforce safety rules for their children's online 
activities. With AOL's still industry-leading products, parents 
can now set time limits for online activity, decide whether 
their children can e-mail and IM, and if so, with whom, choose 
the Web sites and products they can access, and even get a 
report on their child's online activities, essentially report 
card on where they have been and what they have done.
    These amazing capabilities have been recognized in a recent 
landmark decision in the COPA matter. The Federal District 
Court in Philadelphia recognized that AOL's parental controls 
blocked over 98 percent of sexually explicit Web sites, and 
that 87 percent of parents found them easy to use.
    Now AOL has made their parental controls free of charge, 
even to non-AOL users. AOL also offers other tools, such as a 
visible and convenient ``notify AOL'' button, for members to 
report unacceptable or illegal behavior to teams of trained 
professionals who work closely with law enforcement.
    Finally, AOL produces and provides alternative Web 
programming for children and teens so that they can have a 
positive Internet experience. Collectively, these are 
extraordinary tools provided by our industry to parents to 
protect their children.
    In 1999, Congress passed important legislation that 
required service providers to report apparent images of child 
pornography to the National Center. This legislation actually 
reflected a practice that AOL had undertaken several years 
prior, enabling AOL to begin immediate compliance. To improve 
reporting further, theindustry developed a broader sound 
practices document that encourages referral of offending images 
and other valuable information to NCMEC in order to ensure that 
law enforcement has sufficient basis for a quick follow-up.
    In 2006, AOL and other leading service providers submitted 
nearly 30,000 reports related to child pornography and 
endangerment. Those are 30,000 child pornography cases that 
likely would have gone unnoticed.
    We also respond effectively to law enforcement inquiries. 
This past August, Pennsylvania law enforcement told us they 
urgently needed to find the location of a child molester who 
was abusing two children and broadcasting video of the abuse in 
real-time. Working with law enforcement, AOL was able to 
provide the police with the location, and the police caught the 
molester in the act and rescued the children.
    AOL's efforts do not simply stop at reporting evidence of 
crimes. AOL has a team of highly trained and dedicated 
professionals, including former prosecutors, who assist on tens 
of thousands of cases per year. We have a 24-hour dedicated law 
enforcement hotline to respond to law enforcement requests in a 
timely basis.
    Since 1995, we also offer pretrial litigation support, as 
well as fact and expert witness testimony in criminal cases 
involving records obtained from AOL.
    The important message is while there are ways to enhance 
these processes even further, the underlying framework for 
reporting crimes, preserving evidence, and cooperating with law 
enforcement are strong and effective. The processes that 
Congress and industry put in place really do work.
    We also continue to innovate. AOL implemented extremely 
effective technologies to identify, detect, and remove child 
pornography images from any transmission within our network. In 
addition to the detection, we collect them and forward them 
onto the National Center, and then work with law enforcement 
for ultimate prosecution.
    We were the first provider to work online with the AMBER 
Alert program, and we now use that same technology to alert 
campuses on safety issues after the tragedy at Virginia Tech. 
We also recently instituted with the National Center a 
dedicated area where they can set up a space, since they have 
been designated as the Emergency Child Locator Center, in light 
of the tragedy at Katrina.
    So our work is ongoing, and we look forward to working with 
this Committee to develop further strategies.
    [The prepared statement of Mr. Ryan follows:]

                    Prepared Statement of John Ryan

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you, Mr. Ryan. Ms. Banker.

                TESTIMONY OF ELIZABETH BANKER, 
                ASSISTANT GENERAL COUNSEL, YAHOO

    Ms. Banker. Chairman Scott, Ranking Member Forbes, and 
Members of the Committee, thank you for the opportunity to be 
here today to talk about how we can all work together on the 
very important issue of child online safety.
    I am pleased to tell you in my 8 years at Yahoo I have seen 
significant improvement in the user control tools, educational 
resources, and enforcement systems to protect children. 
Unfortunately, as you have heard today, despite these efforts, 
criminals persist.
    It is essential that both industry and government fulfill 
their unique roles in promoting online safety. Yahoo's 
commitment to fostering a safe environment begins with our own 
products and services. Our approach focuses on four key areas.
    First, building safer online spaces. We offer a safe site 
for kids, and tools such as safe search, parental controls, and 
privacy preferences that allow users to decide what information 
to share and with whom to communicate.
    Tools alone are not enough. We also educate users. This 
year we launched Yahoo Safely, an educational site on the do's 
and don'ts of online safety. More recently, Yahoo Mash joined 
with i-SAFE on a safety video for teens.
    Second, reporting and appropriate content. Yahoo encourages 
users to report violations through prominent report abuse 
links, and works with partners such as the Internet Watch 
Foundation, who report child abuse URLs. To promptly report 
child pornography to NCMEC, we invested in systems to forward 
the information needed for successful law enforcement 
referrals.
    Third, detecting and deterring child pornography. We have a 
multi-faceted approach, combining technology, user and third-
party reports, and human review. We also partner to develop new 
tools, including supporting a technology coalition to build 
better solutions.
    Partnerships are the fourth aspect of our strategy. Yahoo 
works with groups like i-SAFE and NCMEC to promote online 
safety. On Friday, Yahoo and the California Technology 
Assistance Project will host a summit on Internet ethics and 
safety. Yahoo's partnership with law enforcement is a key 
element in our efforts. Our compliance team is available to law 
enforcement 24-7 for emergencies. We have created a guide for 
law enforcement outlining our procedures, and we regularly 
participate in training, including ICAC conferences. Recently 
we partnered with State attorneys general to conduct training 
in Nebraska, New York, Texas, New Jersey, and Colorado.
    Yahoo is committed to protecting children, yet there is 
more to be done. Critical functions, such as prosecuting and 
sentencing offenders can only be performed by government. There 
are four areas where the public-private partnership can be 
enhanced by congressional action: safety education, law 
enforcement tools, government supervision of sex offenders, and 
resources. These are discussed at length in my written 
testimony. I would like to highlight a few.
    The child pornography reporting statute should be revised 
to clarify the data NCMEC needs to refer reports to law 
enforcement. Providers should also be given immunity for 
transferring illegal images to NCMEC. After these improvements, 
this should become the single national standard to ensure 
coordination among Federal, State, and local authorities.
    We also encourage the Committee to ensure preservation 
requests are part of the referral process. Preservation 
authority is a powerful tool that helps ensure future 
availability of data. This targeted approach avoids many of the 
pitfalls associated with broader proposals. Thus, we support 
provisions in the Rescue Online Services Act just introduced by 
Representatives Christopher Carney and Steve Chabot. Also, a 
bill introduced by Representative Nick Lampson would allow 
States to use critical investigative techniques in child 
exploitation cases.
    To address concerns about sex offenders, we recommend the 
Committee give additional resources, training, and legal 
authority to those best equipped to determine how to minimize 
the risk, the judges who sentence offenders and the parole and 
probation officers who oversee them. This could be done by 
expanding guidance for judges on restricting Internet use by 
offenders and by providing monitoring tools and training to 
parole and probation officers. We are concerned that approaches 
that do not leverage law enforcement to set and enforce 
restrictions could have unintended consequences, including 
ensnaring innocent Internet users.
    There are two final areas that support the legislative 
changes I have outlined, training and funding. There are 
several bills notable for making the necessary investments to 
protect children. Bills introduced by Representative Debbie 
Wasserman Schultz and Representative Bobby Scott both include 
funds for law enforcement training. A bill introduced by 
Ranking Member Lamar Smith has resources for Innocent Images, 
and a bill introduced by Representatives Chabot and Lampson has 
funds for ICACs. We are hopeful to see this strategic funding, 
as well as appropriations for the Adam Walsh Act.
    Yahoo is pleased to be among the witnesses at this hearing 
to take decisive action to fight child exploitation. We look 
forward to working with the Committee on legislation Yahoo can 
eagerly support to advance this goal.
    Thank you.
    [The prepared statement of Ms. Banker follows:]

                 Prepared Statement of Elizabeth Banker

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you very much. I would like to thank all 
of our witnesses. We will now have rounds of questions, and I 
will recognize myself first for questions for 5 minutes.
    First, just very briefly, Mr. Ryan and Ms. Banker, do you 
have any difficulty complying with the laws that require you to 
report images? Is there any logistical problem in doing that?
    Mr. Ryan. With respect to AOL, no, Chairman Scott. That has 
been our practice for over 7 years. Even prior to the 
legislation, we were doing that on a voluntary basis. So we 
were very comfortable with that practice. We do call upon this 
Committee for the opportunity, though, to clarify and grant 
immunity in the transmission of those images so it minimizes 
any open issues that may be raised. Clearly, the Department of 
Justice understands and endorses the practice. But it would 
give, I think, greater assurance to those ISPs who still may be 
on the sidelines to get them to pony up and get engaged in the 
process as well.
    Mr. Scott. And what do you need immunity for? Is that to 
protect you against any liability that could occur because of 
the transmission, violation of privacy or something like that?
    Mr. Ryan. That is correct, because we as private citizens 
do not have any nonlegislative immunity to possess those images 
during the time which they are conveyed to NCMEC or to law 
enforcement.
    Ms. Banker. I would just like to add that the current 
reporting statute does not specify that the image should be 
part of the report, and we think that both clarity as to what 
should go into a report to NCMEC, saying that it should include 
the image, as well as then making sure that the appropriate 
immunities are in place for the transfer of the image would 
greatly improve the quality of the reports that NCMEC receives.
    Mr. Scott. Okay. You don't need--I thought you were looking 
for immunity for violation of people's privacy, if you take 
somebody's property if it wasn't in fact illegal activity and 
you would expose their privacy or something like that. That is 
not--you would want immunity from that, but you are talking 
about immunity because you, during that period of time, 
actually have possession of the material. Okay.
    Mr. Waters indicated that we don't have the resources. Mr. 
Weeks has indicated that the number of prosecutions compared to 
the number of cases we know about is somewhat modest. Now Mr. 
Mason, you indicated hundreds of thousands of leads and only 42 
open cases. Did I hear you right?
    Mr. Mason. No, sir.
    Mr. Scott. Okay. How many cases--how many possible 
investigations? I thought you said hundreds of thousands of 
possible investigations.
    Mr. Mason. No, sir, I didn't say that. We have 
approximately 2,600 current cases open.
    Mr. Scott. Okay. How much more money would you need to 
pursue the cases that Mr. Weeks and Mr. Waters have indicated 
are cases where you have live leads, and but for resources, 
because of lack of resources you can't pursue them?
    Mr. Mason. That would be an answer I would have to come 
back to the Committee with. It would be hard to answer now. It 
is tantamount, in some respects, to trying to catch everybody 
going 58 miles an hour in a 55-mile an hour speed zone. The 
number of people out there engaged in this activity is 
absolutely staggering. So at this moment in time I wouldn't be 
able to give you a figure that would allow us to cover all of 
the people out there engaged in this kind of activity.
    Mr. Scott. I suspect that you might have--I mean the 
difference between going 58, if the going 58 caused the kinds 
of damage that is being caused here, I think you might get the 
resources to catch everybody going 58.
    Mr. Mason. I agree, and I certainly didn't mean to compare 
the consequences of those two acts.
    Mr. Scott. So if you could give us some resource numbers.
    Mr. Waters, what kind of numbers should we be hearing in 
terms of resources?
    Mr. Waters. Mr. Chairman, from the perspective where 
Wyoming is concerned right now, we are bringing in roughly 35 
to 40 new offenders that we identify in our State each month. 
And I can handle with my seven agents, counting myself, we can 
handle right at seven to 10 cases a month. If we tripled our 
funding we may be able to get a start on trying to keep up with 
just what is coming in, not the growth. We are seeing it 
escalate each month. So at the current state, I think tripling 
our efforts would be----
    Mr. Scott. I would ask you and Mr. Weeks, do you need any 
new laws or just need resources?
    Mr. Waters. From our perspective, Project Safe Childhood 
and the push with the U.S. Attorney's office to prosecute these 
cases has given us amazing coverage in getting the offenders 
that we do catch brought before the judge and put in jail. So 
right now our laws are working fairly well. Other folks have 
spoken about other issues that we are not yet facing in 
Wyoming.
    Mr. Scott. Mr. Weeks?
    Mr. Weeks. Mr. Chairman, there are laws that would be very 
helpful. I know that they do need some help with some of these 
data retention issues. But honestly, I don't think the answer 
is more laws at this point. I think the answer is more 
resources. Because as long as they can't even begin to pursue 
what they--the predators that they see now on their screens, it 
is almost a moot point.
    Mr. Scott. Thank you. I recognize my colleague from 
Virginia, the Ranking Member, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, and thank all of you 
for taking time to be with us today.
    Ms. Banker, we heard the testimony from Alicia a little bit 
earlier, and she had to leave before we could ask her any 
questions. And just before I ask you one, Mr. Chairman, I would 
like to ask unanimous consent to put in an article from the New 
Jersey Star-Ledger dated Sunday, August 14th, 2005, outlining 
Alicia's testimony and her situation.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Forbes. Also I would just like to mention for the 
record that the Ranking Member Smith has been on the Floor 
dealing with FISA today, and that is why he hasn't been here 
because he would have loved to have heard all of his testimony
    Mr. Scott. I think that is where the Chairman is, too.
    Mr. Forbes. Ms. Banker, first of all, you deserve some 
questions. You all deserve some questions because, in Alicia's 
situation, it was your company that actually happened to locate 
the individual that had kidnapped her and taken her in; is that 
correct?
    Ms. Banker. That is correct.
    Mr. Forbes. Were you General Counsel at that time?
    Ms. Banker. I did oversee our law enforcement combined 
function at that time.
    Mr. Forbes. One of the things that we heard in there when 
we talked about immunity was when, prior to the PATRIOT Act, 
which gave you immunity in that particular situation, that many 
of the providers were reluctant to give that kind of 
information for fear of lawsuits that would come down on them 
even if a life was at stake.
    Is that accurate?
    Ms. Banker. I think that most providers in the face of a 
situation where a child is in danger would make the decision to 
provide the information. But it greatly eased our ability to do 
so when that was included as a specific legal exception.
    Mr. Forbes. Did you ever have to make that determination as 
General Counsel prior to that time?
    Ms. Banker. I did.
    Mr. Forbes. Did you authorize it to be released always, or 
was it a concern to you that they might have lawsuits that come 
up?
    Ms. Banker. I don't think our primary concern was lawsuits. 
I think the company has always tried to do the right thing in 
terms of protecting our users' privacy interests.
    Mr. Forbes. So you are suggesting that the fact that you 
may be sued later on was not a part of the--one of the 
components that you would take into advising what actions that 
the company would take?
    Ms. Banker. It certainly is something that goes into the 
formula. But having been the person on the other end of the 
phone, when law enforcement calls and says that a child is 
missing, I can tell you that you feel a very strong 
responsibility to act in the best interest of public safety. 
And while we certainly always adhere to our terms of service 
and our privacy policy and Federal laws on these issues, we do 
our best to balance those.
    Mr. Forbes. I just can't imagine that general counsel 
wouldn't at least take that into account, and certainly in the 
article that I just had admitted to the record, it seems like a 
lot of other providers said that that was a major concern to 
them and that they were glad that they had that act.
    That allowed them to be able to do that.
    Mr. Rothenberg, let me go to you and ask you, what 
challenges do prosecutors face in receiving adequate sentences 
against child pornographers? We heard about the need for money. 
We know that. You know, every single group that comes before us 
needs more money. It is not that you don't. We don't disagree 
with you about that. But we always know that we need more 
money.
    What challenges do you face other than financial in 
receiving adequate sentences against child pornographers?
    Mr. Rothenberg. We do in fact have a problem with that, as 
I pointed out, and I go into it in a little more detail in my 
written statement.
    We have faced slightly higher than 26 percent non-
government sponsored downward departure rate by judges in child 
pornography possession cases. That is twice the rate for other 
crimes in the last few years since the sentencing guidelines 
became advisory under the Supreme Court opinion in U.S. v. 
Booker.
    Mr. Forbes. That was 29 percent.
    Mr. Rothenberg. 26 percent. So a little more than one-
fourth of these cases we believe reflect the erroneous view 
that the possession of child pornography isn't such a bad 
crime, and as I said, possession drives demand. And it is a 
victimization of the child and needs to be punished 
sufficiently.
    Mr. Forbes. You are saying, even when you have the 
resources and get it to a conviction, that you are having some 
problems with some judges giving sentences.
    Mr. Mason, what additional tools do you need to stop the 
flow of money to offenders that are involved in child 
pornography and the exploitation industry? And I know that you 
had difficulties because of the use of virtual money on that.
    Can you tell us if there are any additional tools that you 
need in that?
    Mr. Mason. They use a lot of different methodologies to 
move around, and I am not sure right now, I am not prepared to 
give an answer regarding that specific problem as to what we 
would need to further curb this problem.
    The devices they use, citizens use to buy goods and other 
things off of the Internet, and I certainly wouldn't want to 
preclude that activity.
    So I would--I am not prepared at this moment to speak to 
what we would need specifically in terms of legislation to tamp 
down that particular problem.
    Ms. Sanchez. [presiding.] Do you yield back?
    Mr. Forbes. One of the reasons that we hate this format is 
we have seven witnesses in here. We can't ever adequately ask a 
question. We would like to pick your brain on more of these 
issues. Hopefully, we will get to a time where we can talk and 
get your testimony in a more advantageous situation.
    Ms. Sanchez. The point of the gentleman is well taken, and 
we also have written questions.
    I will now recognize myself for 5 minutes of questions.
    I want to commend Ms. Banker and Mr. Ryan, Yahoo and AOL 
for the wonderful steps that they have taken to--taken to try 
to help keep children safe online.
    You mentioned your work with the National Center for 
Missing and Exploited Children to create a database for 
automatic identification and removal of known child pornography 
images.
    Is there anything that Congress can do to help make that a 
reality?
    Ms. Banker. We think there is something that could be done, 
and one of those things is that there is information that the 
National Center has about the attributes of images, and as we 
work, as companies, to develop new technologies with the goal 
of doing a better job of detecting and removing these types of 
illegal images from our networks, we think there may be a need 
to find out more information about the nature of those images 
in order to make our screening technology more intelligent 
about those issues. And that is a provision that we would like 
to see additional authority given to the National Center to 
allow them to share that information with us.
    Ms. Sanchez. Can you also talk a little bit about some of 
the emerging issues in the area of child safety?
    Ms. Banker. One of the big issues that we see coming up for 
teens in terms of online safety is cyber bullying. And we have 
been working online and off line to address that issue, 
including the summit, I mentioned, on Friday on cyber safety is 
going to address cyber bullying as part of that; and it is 
focused to educate or to help them understand what types of 
issues their students will be facing.
    We are also sponsoring the i-SAFE curriculum in middle 
schools in Sunnyvale, California, where we are headquartered, 
so that teens will learn about cyber bullying and how to 
address it in their day-to-day lives.
    We also noted that you have addressed cyber bullying in 
your education bill, and we are very glad to see resources 
being allocated for that important issue.
    Ms. Sanchez. It strikes me, and we have heard very 
compelling testimony from all of the panels today, but it 
strikes me that there are the three tools of law enforcement, 
which are prevention, enforcement and punishment.
    What has been discussed today has been the enforcement and 
punishment, and it was said in the earlier panels, the first 
line of defense is their parents. But I really believe the 
first line of defense for children is themselves, and being 
knowledgeable about what to do if they are online and they are 
getting improper contact or messages that make them 
uncomfortable. And I know there are a number of programs that 
are aimed towards trying to teach children about online safety, 
and perhaps that aspect of it doesn't get a lot of attention, 
although really it should because children need to be educated 
about what to look for when they are online.
    Mr. Weeks, I am painfully aware of the fact there is a lack 
of resources that have been dedicated towards prosecuting these 
online predators. And that seems to be an overriding theme 
among all of the panelists that, really, if Congress were 
serious about this, we would stop spewing rhetoric and do 
things where we take into account their real costs and are 
really going to be effective; and I really have to commend you 
for being tough and speaking the truth.
    I mean, speaking truth to power is often the first thing 
that needs to happen in order to chang attitudes, and 
unfortunately, up here, oftentimes the easy or least costly 
solutions are what people grasp for so that they can say, well, 
we have done something about this.
    You did mention, though, in addition to needing more 
resources and funding for enforcement, that there are perhaps 
other things that Congress can do as well to help prosecute 
these predators.
    Could you just mention, in as much time as is left, some of 
those things that Congress can do to help?
    Mr. Weeks. Well, I think there has been a number of bills 
suggested today that are very good and will help law 
enforcement and help us do this.
    I would add one thing that I think would have a tremendous 
impact, and that is simply accountability. I think that in 
communities small and large across the country, nobody in terms 
of prosecutors, really, is held accountable. We understand the 
concept of holding judges accountable. We know what we are 
seeing when we see a judge that sits at the bench and looks at 
child pornography and then gives probation. But it is not the 
judges 99 percent of the time who makes those decisions. It is 
the prosecutors. Most of these cases never get--they are plea 
bargained before they ever get to a judge.
    So accountability in terms of--call it sunshine. If this 
country--if our citizens knew who took this seriously and who 
didn't, I think people would change their behavior overnight.
    Ms. Sanchez. Thank you.
    My time has expired.
    I will recognize the gentleman from Florida for 5 minutes 
of questions.
    Mr. Keller. For me, the bottom line is online predators 
must be captured, prosecuted and locked away. No question. 
Since we are limited to 5 minutes, I am going to limit my 
questions to the narrow issue of grooming. And that is a 
behavior that occurs when Internet child predators lie about 
their age to entice their victims.
    For example, earlier today, Alicia testified, ``I chatted 
for months with Christeen, a beautiful red-haired 14-year old 
girl who just understood me all too well. Christeen was really 
a middle-aged pervert named John. Somehow in this process, this 
grooming of me had changed me, had destroyed my ability to 
reason.''
    A few months ago, the Florida legislature passed the Cyber 
Crimes Against Children Act and became the only State in the 
Nation with a law specifically targeting grooming; 49 out of 50 
States have no such law on the books, and the Federal 
Government has no such law on the books.
    Let me begin with Mr. Waters.
    What is your experience in dealing with this behavior that 
we are hearing about called grooming?
    Mr. Waters. Thank you, sir.
    We do get a lot of reactive calls where we have children in 
our State that have been contacted by individuals.
    Frequently, we have trouble coming up with chargeable 
actions if the individuals have not yet started specifically 
addressing the sexual activity they are looking for with the 
child or they haven't arranged the meeting.
    Mr. Keller. Is there--is it a common phenomenon for these 
online predators for them to misrepresent their age to give 
young teenagers a false sense of security?
    Mr. Waters. It is.
    Mr. Keller. Let me ask you, Ms. Collins, and I know your 
national center collects a wide variety of data. Do you see 
this as a problem?
    Ms. Collins. Absolutely--the problem of online grooming. 
And we also accept reports of enticement. In fact, we have had 
a 300 percent, approximately 300 percent increase in just the 
last year with reports coming in from the public regarding 
enticement.
    It is a big problem. The children, boys and girls in their 
teen years, are especially vulnerable, particularly girls 
between the ages of 13 and 15.
    The offenders who are targeting them know exactly what they 
need to do in order to work their way into the child's life, 
much like they did with--like they did with Alicia.
    We see them being deceptive about their age, certainly 
about their motives. But also they are not only lying about 
their age, and they are simply playing upon the emotional 
vulnerability on the child and trying to work in that way.
    Mr. Keller. Mr. Mason, over at the FBI, do you see this 
issue of this grooming taking place with the child predators 
lying about their age to make the victims feel more comfortable 
and give them more information.
    Mr. Mason. Yes, sir. We do.
    Mr. Keller. What is it about this behavior that makes child 
predators think they have to lie about their age? Why does it 
benefit them, from your investigative point of view?
    Mr. Atwood. They want to make themselves like the victim, 
and age is a common factor that they can have with the victim. 
So they certainly use that as a ploy to get children to speak 
to them.
    And, unfortunately, as Mr. Weeks said, there is--that 
sometimes at the beginning stage, if you intervene at that 
stage, there is not much legally that you can do with somebody 
who is molding them out to be a 16-year old who happens to be a 
37-year old.
    Mr. Keller. Would you agree, if there was a law on the 
books making that a crime to misrepresent their age, that would 
make it easier then to prosecute them and gather information 
from the perpetrators?
    Mr. Mason. I would agree with that.
    Mr. Keller. And over at Department of Justice, Mr. 
Rothenberg, do you have any opinion on whether that would make 
it easier to do the investigation and prosecution if there was 
a law on the books making it a crime to engage in the 
misrepresenting of age through grooming?
    Mr. Rothenberg. I think it is--certainly we would be happy 
to look at it.
    Right now, without language in front of me, it would be 
difficult for me to express an opinion, but we are happy to 
work with you on that and take a look at your--any proposals 
you would have.
    Mr. Keller. Thank you.
    Ms. Collins, I had an experience earlier this week. I 
opened an office to help catch child predators in Orlando, and 
he cited some specifics from your organization, National Center 
for Exploited Children.
    He said there are 77 million kids that use the Internet 
daily, and one out of seven kids between the ages of 10 and 17 
are sexually solicited online.
    Does that sound correct based on your data?
    Ms. Collins. That is the newest data that----
    Mr. Keller. Where is that trending?
    Ms. Collins. The original research was conducted in 2001, 
and at that time, it was one in five children had admitted that 
they had been sexually solicited online. The good news is it is 
not saying one in seven. We are hoping that that may have 
something to do with the prevention work that has been done by 
countless agencies.
    The unfortunate reality, though, is even though the number 
appears to have been going down in terms of the solicitation, 
the aggressive solicitations have not changed at all. That 
would be those solicitors that were trying to reach a child by 
mail, by phone or in person, and those have held steady since 5 
years earlier, as well as the unfortunate fact that many of 
these children, more than half of them, never tell an adult, a 
trusted adult, when those things happen to them.
    So those are the areas we need to continue working on.
    Mr. Keller. Thank you. My time has expired.
    I yield back.
    Ms. Sanchez. I would now like to recognize the gentlewoman 
from Florida, Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. My questions will primarily be for 
Mr. Mason.
    Mr. Mason, Arnold Bell is the chief of your Images Unit. 
Can you tell me why he isn't here to testify?
    Mr. Mason. He is here. He is sitting behind me, but I was 
asked to testify.
    Ms. Wasserman Schultz. I believe Mr. Bell was actually 
invited to do the testifying. Was there a substitution made in 
the Justice Department?
    Mr. Mason. Not in the Justice Department. But in the FBI. I 
only received notification that I was going to be testifying 
here today.
    Ms. Wasserman Schultz. Mr. Bell is the person with the most 
in-depth knowledge about the FBI Innocent Images Unit; isn't 
he?
    Mr. Mason. That is correct.
    Ms. Wasserman Schultz. I was personally disappointed that 
he was not sitting here at the table because we would want the 
person with the in-depth knowledge to be the one who answers 
the questions.
    Can you get back to me why the switch was made? Because I 
know it didn't come from the Committee on the Judiciary.
    Mr. Mason. I can do that.
    Ms. Wasserman Schultz. Who is James Finch?
    Mr. Mason. He is the director of our Cyber Division.
    Ms. Wasserman Schultz. You are aware, aren't you, that 
Senator Biden, Joe Biden, wrote a letter to FBI Director Robert 
Mueller asking him specific and detailed questions about the 
FBI Innocent Images Unit; aren't you?
    Mr. Mason. Yes, I am.
    Ms. Wasserman Schultz. And Mr. Finch has responded to Mr. 
Biden. Have you seen the letter?
    Mr. Mason. I didn't see the letter, but I know he did 
respond to the letter.
    Ms. Wasserman Schultz. I prepared a copy of the letter to 
submit it for the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Wasserman Schultz. You know then, Mr. Mason, that in 
Mr. Finch's letter, he stated that the Innocent Images Unit 
currently has 32 staff members, including 13 investigators; is 
that correct?
    Mr. Mason. That is correct.
    Ms. Wasserman Schultz. Do you know how large the unit was 
in 2006?
    Mr. Mason. I do not.
    Ms. Wasserman Schultz. Was it smaller or bigger or about 
the same?
    Mr. Mason. It was larger.
    Ms. Wasserman Schultz. I think the number was closer to 40.
    So the number of the agents actually has shrunk since 
Congressman Barton, when he chaired the Energy and Commerce 
Committee, since his hearings last year, the number of 
investigators was actually less this year than it was last 
year; correct?
    Mr. Mason. In the Innocent Images Unit, yes.
    Ms. Wasserman Schultz. The total budget for that unit is 
about $30 million?
    Mr. Mason. No, ma'am. Are you talking annually?
    Ms. Wasserman Schultz. I am.
    Mr. Mason. No, it is not $30 million. If you are talking 
about appropriated money, it is around--it is closer to $6 
million.
    Ms. Wasserman Schultz. But total funds is $30 million?
    Mr. Mason. I am not sure what you are making reference to.
    Ms. Wasserman Schultz. What I am making reference to is Mr. 
Finch also stated in his letter to Senator Biden that 
approximately $3.8 million was transferred from Innocent Images 
to IC3, which is the Internet Crimes Complaint Center.
    Mr. Mason. That is correct.
    Ms. Wasserman Schultz. What is IC3?
    Mr. Mason. It is a location we have in West Virginia where 
we collect Internet complaints, Internet crime complaints. It 
is a place to aggregate it because the average Internet fraud 
amounts to about $75, so we were looking for a way to aggregate 
all of those complaints to find out when in fact we had a 
problem.
    Ms. Wasserman Schultz. They investigate fraud and white 
collar crime; correct?
    Mr. Mason. That is correct.
    Ms. Wasserman Schultz. Why is so much of Innocent Images 
being sent to an agency that has nothing to do with child 
protection?
    Mr. Weeks. Well, in fact, it does, and in fact over a 
thousand complaints last year came in to IC3 through the 
Internet Crime Complaint Center.
    Ms. Wasserman Schultz. Child protection complaints came 
into IC3?
    Mr. Mason. No. Complaints of suspected child molestation. 
And so the fact of the matter is, the average American doesn't 
understand necessarily that it is for white collar crime only. 
They only know it is an Internet Crime Complaint Center, and 
they make calls of all natures, of all natures to the Internet, 
to IC3.
    Ms. Wasserman Schultz. But the majority of the resources 
should be with the Innocent Images program and not diverted to 
an agency that is dedicated to white collar crime and Internet 
fraud; wouldn't you agree?
    Mr. Mason. That didn't just go to IC3. It went to that and 
to our Cyber Fusion Center. It was split between the two. We 
see that as a force multiplier, so we do not see it as a 
diversion away--against Crimes Against Children but rather as 
yet another type of force multiplier that helps us to identify 
even more perpetrators of crimes against children.
    Ms. Wasserman Schultz. You are aware that we are 
investigating less than 2 percent of the activity?
    Mr. Mason. I am.
    Ms. Wasserman Schultz. Particularly because you compared 
the activities to speeders in your comments earlier.
    Mr. Mason. Only as a scope issue.
    Ms. Wasserman Schultz. I think it was an unfortunate 
analogy, which you acknowledged.
    Has your department, your division, or any entity in the 
Department of Justice asked for more money in the President's 
budget request to come back to cyber crime?
    Mr. Mason. We have not asked for more money, but we have 
indicated in 2008 that none of the money for Innocent Images 
will be diverted anywhere else.
    Ms. Wasserman Schultz. That is comforting. It would be good 
if the U.S. Department of Justice refocused their priorities on 
making sure that we up the percentage of crimes that we can, 
against children, that we can investigate beyond 2 percent.
    Ms. Sanchez. The time has expired.
    If there is sufficient interest, if there are other Members 
who would like an additional 5 minutes for questions, since 
there are so few of us remaining.
    Ms. Wasserman Schultz. I don't need 5 minutes, but I would 
like to ask Mr. Weeks one question.
    Ms. Sanchez. Without objection, the gentlewoman would be 
granted 2 additional minutes.
    Ms. Wasserman Schultz. Thank you.
    You talked about a need for accountability. How does a 
special counsel at the Department of Justice who would be 
dedicated to coordinating all of the activity do what you were 
describing in terms of achieving that accountability? This 
would be a special counsel at the Department of Justice for 
child exploitation.
    Mr. Weeks. My personal opinion is that, rather than a 
special counsel, we probably need a czar. If there is anything 
stronger than a czar, we need that.
    There are so many efforts going on right now within the 
Department of Justice. Just within the Department of Justice, 
you have got the ICAC program. You have got the FBI. You have 
got to CEOS, the Child Exploitation Obscenity Section. You have 
got Project Safe Childhood. You have got the U.S. Attorneys 
program.
    There is an urgent need for coordination, planning. And 
with that will come inevitably some elimination of duplicated 
efforts.
    I don't think anybody up here would believe for a second 
that we have to worry right now about waste or lack of 
efficiency because these folks are doing incredible work with 
very little money.
    But the point is a special counsel would enable the 
Department of Justice to do exactly what you have been calling 
for, which is to refocus this effort and do it in a deliberate 
and efficient way.
    Ms. Sanchez. At this time, I would recognize Mr. Forbes for 
5 minutes of questioning.
    Mr. Forbes. Thank you.
    It is always interesting to me when we talk about 
accountability, we held a hearing down in Louisiana. We found 
out 12 percent of the people arrested ever actually went to 
jail. Part of that was judges, and part of it was prosecutors.
    And the difference that Mr. Weeks didn't point out is, when 
you have judges, you have a record there that you can look at, 
a transcript, and you compare the sentence to the record.
    When you are dealing with prosecutors, you don't have that 
record. You can't disclose whether witnesses were willing to 
testify, whether there were evidentiary problems, all of which 
prosecutors have to take into play.
    Mr. Rothenberg, we know that the Justice Department's 
proposed crime bill included a provision to include a mandatory 
minimum for possession of child pornography.
    Will you explain why that is needed?
    Mr. Rothenberg. We believe, and we have seen in the 
attitude of a number of judges, child porn is not treated as 
seriously as it should be. As I said and as other witnesses 
have said, the demand for child pornography is what drives all 
of these crimes against children and especially over the 
Internet. In fact, even the young lady, Alicia, who testified 
earlier today so movingly commented that the man who kidnapped 
her, took photos and shared them with his friends, obviously, 
those people were participating in the victimization of her 
even though they were, so to speak, only looking at photos.
    And we do have a problem, as my testimony states, in 
slightly more than one-quarter of all child pornography 
offenses, the guidelines--the judges are not following the 
guidelines that would apply to these offenders who possess 
child pornography, and we believe that by establishing a 2-year 
mandatory minimum, we will be establishing at least a floor 
that anybody who possesses child pornography will go to jail 
for 2 years, and we believe that would send a signal to the 
judges, first of all.
    It would also send a signal, express ours and Congress's 
opinion about the severity of the crime, and it would be very 
useful for the prosecutor to have.
    There have been cases where an offender in Chicago who was 
a drug offender, and he had been sentenced to home confinement. 
And he spent his time downloading hundreds of images of 
children being sexually assaulted. And the judge at the 
district court level sentenced him to 1 day of prison (and 
supervised release) but 1 day in prison.
    We appealed that, and it was reversed in a very eloquent 
opinion by Judge Posner in the Seventh Circuit.
    But that is the attitude some judges have. And by 
establishing a mandatory minimum, we can prevent that.
    Mr. Forbes. Mr. Ryan, I want to compliment AOL for 
retention of records, and I want to ask you, what is the 
process for AOL to retain subscriber records and then provide 
these records to law enforcement via subpoena? How long does 
AOL contain those records, and how cumbersome, and is it 
necessary to retain them any longer?
    Mr. Ryan. We found our existing retention scheme for our 
records has been very effective in our partnership with law 
enforcement coupled with the active use of the preservation 
requests. We received over 2,000 preservation requests last 
year, and recently, we tallied over 80 percent from the States 
that are actively engaged, primarily the ICAC task forces that 
issued preservation requests followed up with further legal 
process, typically search warrants.
    That signifies to us that that is an active investigation 
leading to prosecution. And the fact that we have testified in 
a number of those cases has demonstrated that that tool is 
extremely effective.
    Retention can be misleading because there are no uniform 
standards of what records are kept among various companies.
    That is due to the different architecture of various 
networks and the various business models.
    So we have found that works effectively for AOL. That may 
not be as effective for one of our colleagues.
    So we focus on what works best and most effectively for us, 
and we think the key is an active partnership with law 
enforcement because this data, no matter how long it is kept, 
these are real-time cases, the response has to be typically 
within 24 to 48 hours to get to the bottom of the case.
    So staffing is actually--we find more critical than the 
availability of records.
    Mr. Forbes. Ms. Collins, will you submit for the record 
how--just an explanation for us of how NIC networks with ISPs, 
the financial institutions, law enforcement agencies to 
investigate child pornography sites, and what additional 
resources we need to get the job done?
    Ms. Collins. Approximately 40 percent of the reports we 
receive each week actually come from the service providers. Law 
enforcement really loves the reports that we get from companies 
such as AOL, Yahoo and so forth, and the companies have been 
very good about complying with the Federal law mandating that 
they report child pornography.
    Unfortunately, in order for them to make a tip to the 
CyberTip line, they need to make a report with us so we know 
who the person is. There is no mandate that the companies 
actually register with us. The contents of reports, when we 
have a new ISP calling--actually, I have staff right now in San 
Jose, California, registering new ISPs at a conference out 
there. We have registered about 18 out there alone. We have to 
convince them of what they should be reporting. We have to kind 
of call upon their good nature in trying to do the right thing 
in order to get the appropriate content.
    Companies such as Yahoo and AOL have been wonderful, but we 
have been working with them for many years. It would be very 
useful to have an established content of reports to be provided 
in a cyber tip line as well as some overarching maintenance of 
records and retention.
    But law enforcement, we are making hundreds of referrals 
every week. They are not able to get to these reports in a few 
days.
    So we ask that possibly the electronic service provider 
have more consistency in how long they maintain this data to 
provide to law enforcement with the legal process that they 
need.
    Ms. Sanchez. Mr. Keller is recognized for 5 minutes.
    Mr. Keller. Let me go back to you, Ms. Collins, on behalf 
of the National Center for Missing and Exploited Children.
    If there are parents and teachers as well as teenagers 
watching your testimony today, do you have any tips or 
proactive steps to protect against child predators that you can 
direct them to, maybe a Web site link about, these are the five 
things that every parent or teacher should know?
    Ms. Collins. I think that it goes to something that you 
stated earlier about the child, whether it be the child as the 
first or the last line of defense for themselves.
    I think that there are remarkable programs out there of 
online safety. We used to have many of these tips listed on our 
Web site at cybertipline.com, but we really need to be able or 
to empower these children to be able to recognize the warning 
signs. And I think that it is also important for parents to, 
when they hear the topic of Internet predation, to be able to 
keep some perspective of it that not every child is of equal 
risk of being approached by a predator, but there are some 
significant risks of encountering a bad person. That may be 
chatting with people they don't know online, talking about 
sexually explicit topics, sending photographs online. All of 
these will raise the risk of a child of finding somebody who 
wants to perpetrate against them.
    Mr. Forbes. And those tips can be find on cybertipline.com?
    Ms. Collins. I would also like to recommend that they go to 
our Web site, which is netsmarts411.org. They can ask any 
question that they wish, and our analysts will respond in a 
very clear cut English nontechnological answer of what it is, 
whether they want to know how to delete a MySpace page; how do 
I make my child's social networking page private? They can get 
the answers from that group.
    Mr. Keller. I am going to start with you on my next 
question that is the issue of recidivism. For those listening, 
a fancy way of saying people get out of jail and do it again.
    Do you have any statistics when it comes to sex crimes, 
child molesters, what the recidivism rate is?
    Ms. Collins. I do not have those numbers for you.
    Mr. Keller. If anybody has any recidivism statistics, if 
you can raise your hand, I will call on you.
    Mr. Weeks.
    Mr. Weeks. I will offer this. We deal with this issue in a 
lot of the State legislatures where we are working on 
legislation. Today we heard some pretty outrageous statistics 
about low recidivism rates for sex offenders.
    We have always told our volunteers and our people that you 
will never win that fight.
    Mr. Keller. Do you have a recidivism----
    Mr. Weeks. There was one in Canada that was done recently 
that was very good. Essentially, you have this problem, though.
    Mr. Keller. I just need the number because I have other 
questions.
    The reason that is a significant question, we have heard 
that it is two-pronged, prevention and enforcement. And if you 
could talk about a kid who is engaged in shoplifting or 
vandalism, I would totally agree with it. But I think some of 
these people can't be fixed, frankly. And I think looking them 
up is the only way to go.
    So, in Florida, we have something called the Jimmy Ryce Act 
that, after their term is over, we still keep them civilly 
confined, and thank God we do, because they are going to do it 
again; and that is why this issue of recidivism is really key 
to look at because some of these folks are just messed up and 
are unfixable through any form of rehab.
    Ms. Wasserman Schultz. Will the gentleman yield?
    We also passed the Federal version of the Jimmy Ryce Act 
and the Adam Walsh Act as well. I am hopeful, and you were 
strongly supportive of it, and my good friend from Florida, I 
am really hopeful that other States will take the urging that 
Congress made in passing that and adopt their own civil 
confinement laws.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Rothenberg. I wanted to reassure the Congresswoman that 
the Bureau of Prisons is enforcing the authority that you gave 
us last year. We have certified several dozen defendants who 
are currently incarcerated for civil confinement. And it has 
been challenged, and we are defending our authority to do that 
very vigorously.
    Ms. Wasserman Schultz. Madam Chair, if you are about to 
adjourn, can I ask the indulgence of the Committee and ask 
unanimous consent for 2 of my 3 additional minutes?
    Ms. Sanchez. I will recognize myself for 5 minutes and then 
yield to the gentlewoman from Florida.
    Ms. Wasserman Schultz. Thank you very much.
    Ms. Collins, can you tell me on the CyberTip line leads, 
how many of those does NCMEC send out to the ICACs each year?
    Ms. Collins. Last year, received about 76,000 leads through 
the CyberTip line. I do not have that number for you. I can get 
that to you when I get back. I have that at my office. I can 
submit that to you.
    But the vast majority of the leads that we do send out to 
local, State and Federal law enforcement, I would say 
approximately 70, 75 percent are going to the ICAC task force.
    Ms. Wasserman Schultz. Is it thousands?
    Ms. Collins. Absolutely.
    Ms. Wasserman Schultz. How many leads does, Mr. Waters, 
does the ICAC send out?
    Mr. Waters. We set up the system so that each State can 
query those dynamically and query those, pull those leads 
directly. Wyoming, being the State with the lowest population, 
has roughly 2,000 leads a year, and it runs the gamut from 
there.
    Ms. Wasserman Schultz. So if Wyoming has the smallest 
population and arguably the smallest number of leads, this is 
hundreds of thousands of leads we could be dealing with.
    Is there any difference between the kind of referrals 
coming from the NCMEC and those coming from the ICAC data, that 
network, that either of you are familiar with?
    Ms. Collins. Sure. The reports we are receiving is a 
combination of what is coming in from electronic service 
providers as what is coming in from the public.
    It can be a parent who said that they found that their 
child is communicating with a stranger online. It could be 
somebody who encountered child pornography online.
    Agent Waters can correct me if I am wrong, but primarily, 
the ICAC data network is providing information out to law 
enforcement regarding individuals using peer-to-peer technology 
to trade images and videos of child pornography.
    Ms. Wasserman Schultz. Mr. Waters, did you want to answer?
    Mr. Waters. That is the primary distinction.
    One of the advantages that we have from those individuals 
that we can triage that data so that we can categorize threat 
levels. Not only do we see who is trading, but we see the 
volume and the time frame they are trading, the level of 
sadomasochism against the child. So we can select the best 
image.
    Ms. Wasserman Schultz. So your process is just more 
formalized and scientific as opposed to more informal referral?
    Mr. Waters. Well, because we know where we are going to be 
looking at the beginning of each day, we know how to look. But 
the CyberTip line is receiving information from all types of 
folks that come across this material. So it runs the gamut of 
what they run into.
    Ms. Collins. It really does run the gamut. We have over 20 
analysts in our CyberTip line that have a tremendous amount of 
value before we refer these leads up to law enforcement.
    Because we get so many leads from the ISPs and from the 
electronic service providers that provide us with the images, 
we need to rely very closely on our relationship with the ICAC 
task forces because we are not a law enforcement agency that 
can mail CDs of child pornography. So we allow law enforcement 
to secure encrypted access into our system.
    Ms. Sanchez. I want to thank our witnesses for their 
testimony. The issues of misuse of the Internet for the 
commission of sex crimes against children is one of the--is one 
of manifest importance for every American, and it is a 
difficult problem for which there is not one easy solution.
    Nonetheless, I want to commend all of our witnesses for 
their commitment to addressing this problem. We have heard some 
very good ideas today that hopefully will give Congress 
guidance as we proceed to move forward in trying to tackle this 
very difficult issue.
    Without objection, Members will have 5 legislative days to 
submit any additional written questions for our analysts which 
we will forward to you and ask that you answer as promptly as 
you can so that they can be made part of the record.
    And without objection, the record will remain open for 5 
legislative days for the submission of any other additional 
materials.
    And with that, this hearing is adjourned.
    [Whereupon, at 5:30 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Lamar Smith, a Representative in 
Congress from the State of Texas, and Ranking Member, Committee on the 
                               Judiciary

    Thank you, Mr. Chairman.
    The hearing today is on an important topic--protecting our children 
from sexual exploitation on the Internet.
    We all agree that we must protect America's children from sex 
offenders. We also agree that law enforcement agencies need additional 
resources to bring child predators to justice.
    Resources, however, are not enough. If Congress is serious about 
combating this heinous crime, then we must provide law enforcement 
personnel with the tools needed to stop sexual attacks on children that 
are broadcast over the Internet.
    Sexual predators use the same Internet technology that has 
revolutionized our way of life to stalk our children. Our criminal laws 
must keep pace with our technology.
    The FBI estimates that as many as 50,000 child predators are online 
at any time searching for their next victim.
    Today, one in five American children between the ages of 10 and 17 
will be sexually solicited online during their lifetime.
    Just last year, Congress enacted the Adam Walsh Child Protection 
and Safety Act, which included new tools to go after sexual predators 
on the Internet. Yet, within months, sex offenders found a new virtual 
playground--social networking websites.
    These websites, mostly used by college and high school students to 
communicate with friends, are now being used by pedophiles to lure 
unsuspecting children.
    Typically, convicted child sex offenders are prohibited from any 
contact with children. Social networking sites can unwittingly provide 
the perfect cloak of anonymity to get around this restriction. Congress 
must stop child predators from using these sites.
    First, we should require sex offenders to report all email 
addresses.
    Second, law enforcement agents need immediate access to Internet 
subscriber information. Before law enforcement officials can shut down 
a child pornography site, they must first identify the operator and 
users of the site.
    Unfortunately, many Internet Service Providers (ISPs) keep these 
records for as little as 24 to 72 hours or less. This short retention 
period may prevent law enforcement officials from catching these 
pedophiles. The failure of the ISPs to maintain these essential records 
can mean the difference between life and death for a child.
    Law enforcement officials have discovered websites depicting the 
live sexual assault of young children as it is happening. Child 
pornography consists of more than pictures of children in suggestive 
poses. It is also the real-time rape, abuse and molestation of innocent 
children.
    Some ISPs retain subscriber information for up to 90 days. Some do 
not retain such information for any significant time period. Record 
retention will help law enforcement officials rescue children who are 
being abused in real-time.
    In a perfect world, cooperation between law enforcement agencies 
and the ISPs would not require a mandate from Congress.
    I hope that a solution can be reached without Congress intervening. 
I am, however, committed to resolving this issue through a legislative 
proposal, if necessary.
    Another important tool to combat the child pornography industry is 
to cut it off at its source--money. In recent years, Internet child 
pornography has evolved from peer-to-peer sharing among pedophiles to a 
global commercial enterprise worth billions of dollars annually.
    Website operators offer ``subscriptions'' to known child 
pornography sites that can be purchased using a major credit card or 
through an emerging tool known as virtual money.
    Virtual money, unlike traditional credit cards, is essentially 
anonymous. It is now the payment method of choice for Internet child 
pornography. Subscribers can provide fictitious personal information 
(or no personal information). No credit card or Social Security number 
is required making them virtually untraceable.
    Virtual money presents yet another loophole of anonymity for sex 
offenders. It leaves law enforcement little hope of identifying these 
predators. I am committed to closing this loophole.
    I welcome our witnesses and thank you for joining us today. I yield 
back the balance of my time.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary

    Mr. Chairman, I thank you for holding this very important hearing 
on ``Sex Crimes and the Internet.'' When crimes are needlessly being 
perpetrated against citizens of this country, we as Members of this 
body have a duty to use whatever measures necessary to curtail such 
criminal behavior and ensure that we provide the most effective 
measures possible to be implemented and enforced to ensure the safety 
of all members of this society.
    I am pleased to welcome our witnesses who have gathered here today 
to give us guidance and insights in our efforts to create innovative 
solutions at the federal level that will address the incredible 
challenges that we face in our attempt to curtail sex crimes against 
children on the internet: Honorable Earl Pomeroy, Representative from 
North Dakota; the Honorable Marilyn Musgrave, Representative, 4th 
District of Colorado; The Honorable Debbie Wasserman Schultz, 
Representative 20th District of Florida; the Honorable Nick Lampson, 
Representative, 22nd District of Texas; the Honorable Christopher 
Carney, Representative, 10th District of Pennsylvania; the Honorable 
Cathy McMorris Rodgers, Representative, 5th District of Washington.
    I also welcome our second panel of witnesses: Mr. Michael Mason; 
Mr. Flint Waters; Mr. John Ryan; Mr. Grier Weeks; Mr. Laurence 
Rothenberg; Mr. Michelle Collins; and Mr. Elizabeth Banker. I hope that 
your testimony here today will prove fruitful in guiding this Committee 
to craft creative and effective legislation to help eliminate such 
intolerable acts perpetrated against innocent children.
    Mr. Chairman, the purpose of this hearing is to discuss issues and 
strategies to combat the use of the internet to facilitate the 
commission of sex crimes against children. It is an opportunity for our 
witnesses to discuss several pending Congressional legislative 
proposals, alternative approaches to stemming sex crimes against 
children over the internet, and give guidance to this Committee as to 
what may be the most efficient and effective means to eliminate sex 
crimes against our children via the internet.
    Mr. Chairman, there are a number of categories of crimes involving 
sexual exploitation of children and minors that are committed through 
the use of the internet. They include: the use of the internet to 
disseminate images of child pornography and sexual exploitation of 
children; the use of the internet by adult sexual predators to 
infiltrate ``chat rooms'' and other social networking sites in order to 
identify underage persons for purposes of arranging sexual encounters 
with minors.
    Unfortunately, the internet provides a market for the distribution 
of child pornography and other images of sexual exploitation of 
children. According to a 2006 report by The National Center for Missing 
and Exploited Children (NCMEC), its Cyber Tipline received reports 
about 62,265 incidents of child pornography, 1087 cases of child 
prostitution, 564 cases of child sex tourism, 2,145 incidents of child 
sexual molestation, and 6,334 cases of online enticement for sexual 
acts. In 2006, child pornography was estimated to be a $20 billion 
industry.
    Even more disturbing is the statistical evidence that demonstrates 
a correlation between the possession of child pornography and child 
molestation. According to the Director of the Sex Offender Treatment 
Program, Butner Federal Correctional Institution, who testified in 2006 
as to his findings related to the treatment of 155 child pornography 
offenders, both groups of Internet child pornography offenders treated 
in the SOTP included a significant proportion (i.e., 80% to 85%) of 
offenders who perpetrated contact sexual crimes. The Director found 
that: at the time of sentencing, 115 (74%) subjects had no documented 
hands-on victims; forty (26%) had known histories of abusing a child 
via a hands-on sexual act; the number of victims known at the time of 
sentencing by the 155 subjects was 75; following treatment, the inmates 
disclosed perpetrating contact sexual crimes against another 1,702 
victims; and eighty-five percent of the inmates were in fact contact 
sexual offenders, compared to only 26 percent known at the time of 
sentencing.
    Mr. Chairman, there is also evidence that not only does child 
pornography inherently involve the commission of sex crimes against 
children, but predators, on occasion, affirmatively use child 
pornography as part of their process of ``grooming'' minors to engage 
in sexual relations. The Unit Chief for the FBI's Crimes Against 
Children Unit testified in hearings held before this Committee in 2002, 
that child pornography is used by molesters to:

        1.  Demonstrate sex acts to children. Offenders commonly use 
        pornography to teach or five instructions to naive children 
        about how to [engage in various sex acts];

        2.  Lower the sexual inhibitions of children. Some children 
        naturally fear sexual activities. Some offenders show pictures 
        of other children engaging in sexual activities to overcome 
        these fears, indicating to their intended victims that it is 
        all right [sic] to have sex with an adult because lots of other 
        boys and girls do the same thing.

        3.  Desensitize children to sex. Offenders commonly show child 
        pornography to their intended victims to expose them to sexual 
        acts before they are naturally curious about such activities.

        4.  Sexually arouse children. Offenders commonly use 
        pornographic images of other children to arouse victims, 
        particularly those in adolescence.

    Another problem has arisen in connection with sexual predators' 
accessing various commercial ``social networking'' web sites. These 
sites, such as ``My Space'' or ``Facebook'' establish on-line 
``communities'' based on common interests or affiliations. Individuals 
can post personal information about themselves and their interests, and 
form on-line relationships with others arising from such common 
interests. Unfortunately, these ``on-line communities'' have provided 
opportunities for on-line predators to locate and identify targets for 
sexual exploitation.
    For example, a study funded by Congress through a grant to the 
National Center for Missing and Exploited Children found that of 1,500 
youths surveyed about their internet activity: 1 in 7 received sexual 
solicitations; 1 in 3 had been exposed to unwanted sexual material; 1 
in 11 had been harassed; 1 in 3 communicated with someone they did not 
know in person; and approximately 1 in 9 formed close relationships 
with someone they met online.
    We must eliminate predators who prey on and commit crimes against 
children as well as the vehicles they use to commit such crimes. We 
need to continue to seek solutions that will put in place effective 
guidelines for combating, preventing and eliminating sex crimes on the 
internet against children in all corners of the United States. I look 
forward to hearing from our witnesses today in our attempt to gain some 
guidance on this very serious matter.
    Thank you, Mr. Chairman. I yield back the balance of my time.

                                <F-dash>

 Prepared Statement of the Honorable Steve Cohen, a Representative in 
  Congress from the State of Tennessee, and Member, Committee on the 
                               Judiciary

    The growth of the Internet has created vast opportunities for 
increased connectivity among ordinary people all around the world. 
Unfortunately, while most of this rise in connectivity has been for the 
better, the Internet's growth has also opened the door to the 
facilitation of sex crimes against children, whether through the online 
dissemination of child pornography images or the use of online chat 
rooms and social networking sites by sexual predators to lure minors. I 
look forward to considering our witnesses' proposed solutions to this 
problem.

                                <F-dash>

   Prepared Statement of Hemanshu Nigam, Chief Security Officer, Fox 
                     Interactive Media and MySpace
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
